<html>
<title> - [H.A.S.C. No. 111-146]DEPARTMENT OF THE NAVY AND AIR FORCE COMBAT AVIATION PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-146]

     DEPARTMENT OF THE NAVY AND AIR FORCE COMBAT AVIATION PROGRAMS

                               __________

                             JOINT HEARING

                               BEFORE THE

                    AIR AND LAND FORCES SUBCOMMITTEE

                          MEETING JOINTLY WITH

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 24, 2010


                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE
57-033                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001
                                     







                    AIR AND LAND FORCES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
MIKE McINTYRE, North Carolina        MARY FALLIN, Oklahoma
ROBERT A. BRADY, Pennsylvania        DUNCAN HUNTER, California
JIM COOPER, Tennessee                JOHN C. FLEMING, Louisiana
JIM MARSHALL, Georgia                MIKE COFFMAN, Colorado
JOE SESTAK, Pennsylvania             W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JEFF MILLER, Florida
NIKI TSONGAS, Massachusetts          JOE WILSON, South Carolina
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
FRANK M. KRATOVIL, Jr., Maryland     ROB BISHOP, Utah
BOBBY BRIGHT, Alabama                MICHAEL TURNER, Ohio
WILLIAM L. OWENS, New York           TODD RUSSELL PLATTS, Pennsylvania
DAN BOREN, Oklahoma
                John Sullivan, Professional Staff Member
                Lynn Williams, Professional Staff Member
                     Scott Bousum, Staff Assistant
                                 ------                                

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
SOLOMON P. ORTIZ, Texas              W. TODD AKIN, Missouri
JAMES R. LANGEVIN, Rhode Island      ROB WITTMAN, Virginia
RICK LARSEN, Washington              ROSCOE G. BARTLETT, Maryland
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine
                 Heath Bope, Professional Staff Member
               Jenness Simler, Professional Staff Member
                  Elizabeth Drummond, Staff Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, March 24, 2010, Department of the Navy and Air Force 
  Combat Aviation Programs.......................................     1

Appendix:

Wednesday, March 24, 2010........................................    45
                              ----------                              

                       WEDNESDAY, MARCH 24, 2010
     DEPARTMENT OF THE NAVY AND AIR FORCE COMBAT AVIATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........     5
Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     4
Smith, Hon. Adam, a Representative from Washington, Chairman, Air 
  and Land Forces Subcommittee...................................     1
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     3

                               WITNESSES

Carter, Hon. Ashton B., Under Secretary of Defense for 
  Acquisition, Technology and Logistics..........................     6
Fox, Hon. Christine H., Director of Cost Assessment and Program 
  Evaluation, Office of the Secretary of Defense.................    10
Gilmore, Dr. J. Michael, Director, Operational Test and 
  Evaluation, Office of the Secretary of Defense.................    11
Sullivan, Michael J., Director of Acquisition and Sourcing, U.S. 
  Government Accountability Office...............................    12
Stackley, Hon. Sean J., Assistant Secretary of the Navy for 
  Research, Development and Acquisition; Lt. Gen. George J. 
  Trautman III, USMC, Deputy Commandant of the Marine Corps for 
  Aviation; Rear Adm. David L. Philman, USN, Director of the Air 
  Warfare Division for the U.S. Navy; David M. Van Buren, Acting 
  Assistant Secretary of the Air Force for Acquisition; and Lt. 
  Gen. Philip M. Breedlove, USAF, Deputy Chief of Staff for 
  Operations, Plans and Requirements, U.S. Air Force, beginning 
  on.............................................................    34

                                APPENDIX

Prepared Statements:

    Carter, Hon. Ashton B........................................    57
    Fox, Hon. Christine H........................................    81
    Gilmore, Dr. J. Michael......................................    89
    Smith, Hon. Adam.............................................    49
    Stackley, Hon. Sean J., joint with Lt. Gen. George J. 
      Trautman III, and Rear Adm. David L. Philman...............   127
    Sullivan, Michael J..........................................   108
    Taylor, Hon. Gene............................................    55
    Van Buren, David M., joint with Lt. Gen. Philip M. Breedlove.   173

Documents Submitted for the Record:

    Air Force answer to Question 22 from Mr. Smith and F-35 Joint 
      Program Office answer to Question 6 from Mr. Smith, April 
      12, 2010...................................................   197

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................   202
    Mr. Smith....................................................   201
    Mr. Taylor...................................................   201

Questions Submitted by Members Post Hearing:

    Mr. Brady....................................................   226
    Mr. Smith....................................................   205
    Mr. Taylor...................................................   218
    Mr. Turner...................................................   228
 
     DEPARTMENT OF THE NAVY AND AIR FORCE COMBAT AVIATION PROGRAMS

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Air and Land Forces Subcommittee, 
            meeting jointly with Seapower and Expeditionary 
            Forces Subcommittee, Washington, DC, Wednesday, 
            March 24, 2010.

    The subcommittees met, pursuant to call, at 2:01 p.m., in 
room 2118, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the Air and Land Forces Subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
     WASHINGTON, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Smith. Hearing will come to order.
    Good afternoon. Welcome to the joint hearing for air, land 
and seapower forces. We, as I understand it, will have votes 
probably in the not-too-distant future which will interrupt us. 
We will try to get to do as many opening statements as possible 
before we have to head out for that purpose.
    The subcommittees meet today to receive testimony on the 
Department of the Navy and the Department of the Air Force 
budget requests for combat aircraft for fiscal year 2011. And 
we have two panels of witnesses today. I will introduce them 
first and then we will have our opening statements from our 
chairs and ranking members, and then turn it over to our first 
panel for their opening statements.
    We have the Honorable Ashton Carter, who is the Under 
Secretary of Defense for Acquisition, Technology and Logistics, 
Office of the Secretary of Defense (OSD).
    We have the Honorable Christine Fox, Director of the Office 
of Cost Assessment and Program Evaluation (CAPE), also with 
OSD.
    The Honorable J. Michael Gilmore, Director, Operational 
Test and Evaluation at OSD.
    Mr. Michael Sullivan, Director of Acquisition and Sourcing 
for the Government Accountability Office.
    That is the first panel.
    On the second panel we will have the Honorable Sean 
Stackley, Assistant Secretary of the Navy for Research, 
Development and Acquisition.
    Lieutenant General George Trautman, Deputy Commander of the 
Marine Corps for Aviation.
    Rear Admiral Deke Philman, Director of the Air Warfare 
Division for the U.S. Navy.
    Mr. David Van Buren, acting Assistant Secretary of the Air 
Force for Acquisition.
    And last but not least, Lieutenant General Philip 
Breedlove, who is the Deputy Chief of Staff for Operations, 
Plans and Requirements.
    As I mentioned, we have scheduled this hearing to give 
members the opportunity to address issues related to all combat 
aircraft programs of the Navy, Marine Corps and Air Force. We 
will be having another subcommittee hearing in late April to 
address mobility aircraft programs.
    I have a complete statement. With unanimous consent I will 
ask that it be included in the record, and I will just briefly 
summarize.
    This committee is very interested in this issue. This is 
arguably the biggest financial issue facing the Department of 
Defense (DOD) in the Armed Services Committee, with the price 
tag on the Joint Strike Fighter (JSF) going forward and the 
challenges that the program has faced.
    And what we really want to learn today on the committee is 
what the force structure for combat aircraft is and what our 
plans are for meeting that force structure requirement. I am 
sure some members will also be curious about how we arrived at 
those requirement numbers year to year going forward.
    And then the specifics of how we get there. There are a 
number of different air platforms or aircraft that are going to 
be factored into that, but obviously the big ticket item here 
is the F-35. Joint Strike is meant to replace a fair number of 
airframes within our force, and therefore how it is progressing 
plays a major role.
    But there are other issues. How long can the F-15s and the 
F-16s last, in your estimation? How many more F-18s might we 
need to buy? And how does all of that combine to give us the 
force structure that we require for fighter aircraft?
    We need to have a better understanding of that, and the 
main concern is the slippage in the cost overruns within Joint 
Strike. Joint Strike is considerably behind its original 
schedule and on pace to be considerably more expensive.
    And my biggest concern at this point is not just that, 
though certainly that is a concern. That to a certain degree is 
the past. The future is what is our path forward. And in my 
study of this issue, it has not become clear to me that we have 
a clear path forward that we can confidently assert that we 
will meet. I am worried about whether or not this program will 
continue to slip to the right, it will get more expensive as we 
go.
    We have laid out a new schedule. Again, it is not clear to 
this committee yet how it is that we have confidence in that 
schedule. As we know, our test aircraft have encountered a 
variety of different difficulties. I don't think we yet have a 
clear idea of this is what any one, A, B or C variant, is going 
to look like, this is what we are building, we know we can 
build it, and we are ready to get started. It is quite a ways 
out before we get to that point.
    One of the aircraft, I believe, was scheduled to start 
production aircraft in 2012; the other two variants are going 
to be 2016. And with all of the testing problems that we have 
had, with all of the cost overrun problems that we have, our 
committee really needs to gain greater confidence that we have 
a plan going forward.
    Certainly people will study what went wrong in the past, 
but for our purposes right now the most important thing is to 
know that we have restructured a schedule that we can 
confidently meet, so we are not sitting back here again next 
year going, ``Here is the new plan.''
    To a certain degree, that is what happened between last 
year and this year. We procured a certain number of the 
aircraft in the fiscal year 2010 budget that after having done 
it through the authorization and appropriations process, DOD 
came back to us and said, ``We don't really need that many, 
because we can't get there.''
    We would rather not keep having that happen every year. 
This is over $10 billion of our acquisition budget, the largest 
chunk we have, and we need to make sure that we are spending it 
wisely, because, as I am sure all of you are aware, we clearly 
and unequivocally have other needs as well.
    As I said, I have a longer statement for the record that 
gets into some of these details that will be made available, 
but those are the main concerns that we hope to hear from our 
witnesses today and from the questioning period.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 49.]
    Mr. Smith. And with that--forgive me, I am not sure the 
protocol with two subcommittees here. Do I turn it over to Mr. 
Taylor or to Mr. Bartlett?
    With that, I will turn it over to the chairman of the 
Seapower Subcommittee, Mr. Taylor.

     STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. Thank you, Mr. Chairman. And with your 
permission I would like to--and unanimous consent--I would like 
to enter my statement for the record.
    Mr. Smith. So ordered.
    [The prepared statement of Mr. Taylor can be found in the 
Appendix on page 55.]
    Mr. Taylor. Mr. Chairman, I thank you very much for calling 
this hearing. Like everyone in this room, we are told that the 
cost of this platform has gone up by 80 percent since 1996, 
that because the cost has gone up so much the anticipated buy 
has dropped by about 535 planes.
    But what is particularly troubling is that, by some 
estimates, the cost of maintaining this aircraft will be 40 
percent more than some of the legacy platforms that it is 
replacing. So I would hope that those three things could be 
addressed in today's hearing.
    Like everyone else, I realize there is a need for the F-35. 
I would also remind our panel and everyone in this room that 
about the time we are buying the F-35, we will have the Ohio 
replacement coming on-line and at an estimated $7 billion per 
ship. The Social Security trust fund will no longer be 
collecting more than it spends. It will be spending more than 
it collects. The Medicare trust fund will be spending more than 
it collects.
    There will be a lot of problems that our Nation will be 
facing, which means if we need the platform, as a Nation, and I 
think we do, we all have a huge responsibility to make it 
affordable.
    So I thank you for calling this hearing.
    Mr. Smith. Thank you.
    Mr. Bartlett.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you, Mr. Chairman. I will keep my 
remarks brief, as we have got a busy schedule today with two 
panels of witnesses and both subcommittees in attendance.
    I welcome all of our witnesses, and thank you for being 
here today.
    This committee has been actively working to try to 
understand the risk the Department is taking in its combat 
aviation programs. I hope that this hearing will clarify some 
things for us because I have some real concerns about the force 
structure decisions that have been made.
    After reviewing the report to Congress on the Combat Air 
Force restructuring plan, it appears to me that the 
recommendation to retire 250 fighters from the Air Force and 
the subsequent budget reductions were made before the Secretary 
of Defense announced he was terminating the F-22 production and 
before any of us learned of the years of delay now forecast in 
Joint Strike Fighter fielding.
    So while the Air Force assumptions back in 2008 led to a 
conclusion that the short-term risk was manageable, the fact is 
today those assumptions are not reality.
    Despite that, it appears the Air Force is going ahead with 
the plan.
    I also share my colleagues' concern over the health of the 
Joint Strike Fighter program. This is an enormously expensive 
program that promises a great deal of capability, but I am, 
frankly, concerned that the cost growth will render it 
unaffordable in the long term.
    In my 18 years in Congress I have seen program after 
program in which the cost grows, the production is reduced to 
fit inside a fixed budget, and the program ends in a spiral 
that leaves the services well short of their inventory 
requirements.
    In attempting to manage the risk associated with the JSF 
program, all of the services appear to be looking for stopgap 
measures. However, to my knowledge, the engineering analysis 
needed to determine if service life extension programs (SLEP) 
on our existing fighter fleets are a reasonable course of 
action have not been completed yet, so we don't know what it 
will cost, how long it will take, or if the resultant service 
life is worth the investment.
    To make matters worse, it has been very difficult to get 
programmatic details from the Office of the Secretary of 
Defense on the JSF program. That has generated not only a sense 
of frustration for the committee, but also has elevated our 
concerns about the true state of the program and validity of 
the proposed restructuring.
    Some have said that the JSF program is too big to fail. I 
am not sure that is wholly accurate. But I do know this is a 
capability that is needed by our war-fighters and is overdue.
    It is critical that we understand the risk in the JSF 
program in the context of the state of the legacy fighter 
fleets as we continue our work on the fiscal year 2011 Defense 
Authorization Act. I hope the witnesses before the committee 
today will help us do that.
    Thank you, Mr. Chairman, for holding this hearing. I look 
forward to the discussion.
    Mr. Smith. Thank you, Mr. Bartlett.
    Mr. Akin now, the ranking member on the Seapower 
Subcommittee.

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
 RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman.
    My sincere hope is that during our first panel we will be 
able to reach a common understanding on the progress being made 
to date on the Joint Strike Fighter program, any remaining 
schedule and affordability challenges, and the Department's 
plan for managing those risks.
    I am particularly concerned about the unprecedented 
concurrency of testing and production, and am convinced that 
this is a bad idea.
    At the same time, I believe it is just as important that we 
come to a common understanding of the big picture affordability 
and inventory risk of our Nation's strike fighters.
    The Department has many competing priorities, including but 
certainly not limited to tactical aviation. Much like 
shipbuilding, we are seeing alarming force structure levels and 
increased demand on our equipment across the board. Although we 
may differ in terms of our recommendations for balancing 
Department of Defense's (DOD) investment against those many 
priorities, we should at least be able to come to agreement on 
the shortfalls and risks we are assuming as a result of our 
decisions.
    Sadly, to date, the Department has been unable to 
articulate the shortfall it faces in Navy and Marine Corps 
strike fighters, let alone tactical aviation across all the 
services. Without consensus within DOD on the situation, we can 
hardly hope for a shared definition of the problem between the 
executive and legislative branches.
    Let me show you what I mean.
    On March 2008, the Department briefed the committee the 
Department of the Navy shortfall was 188 aircraft. That is 
March 2008. In March 2009, we are told the shortfall was 312. 
As if by magic, 2 months later, on May 2009, we are told the 
shortfall was only 146. At the beginning of February 2010, 
Secretary Gates testified the shortfall is only 100 aircraft. 
Toward the end of February the committee was told that the 
shortfall was 177. Five days later, my staff was told the 
shortfall of 100 was--shortfall was 100 aircraft. In testimony 
before the Senate Armed Services Committee (SASC) this month, 
Ms. Fox stated that 100 was an old number, and while she could 
not provide an estimate of the shortfall, it was under review.
    Some change to these estimates could be expected as changes 
are made to the JSF program of record and the other fact-of-
life issues arise. But based on this track record I think it is 
easy to see how we could become concerned that either the 
Department does not know how to handle the viability of the 
strike fighter inventory or the Department is changing the data 
to mask a problem.
    In response to this uncertainty, the Congress has provided 
tools to the Department to create affordable options to improve 
the strike fighter inventory. Among these is the authority to 
enter into a multi-year contract on Super Hornets and Growlers 
that can save the taxpayers nearly $0.5 billion. Unfortunately, 
DOD has yet to take advantage of this tool, and time is running 
out.
    Even if the DOD comes to its senses and proceeds with the 
multi-year, the Department of the Navy will still be several 
hundred planes short. I am baffled by the continued reluctance 
of senior DOD leadership to honestly address the shortfall.
    My goal today is to achieve that mutual understanding of 
the problem. We could benefit greatly from the panels' views 
and updates on this issue. I do look forward to your testimony. 
The biggest single question I have is, if you and the many 
other people who have appeared as witnesses before this 
committee over the past two years would simply look us in the 
eye and say, ``You guys are congressmen. You are the ones that 
make the decision about what kind of budget we have for 
defense, and given the amount of money you are giving us, this 
is our best bet as to how we balance things,'' I don't have a 
complaint.
    But when all I get is year after year smoke and mirrors and 
people pretending like there is not a problem and people that 
pretend like they are answering a question and everybody in the 
room knows you are not answering questions, it makes us have a 
very, very low opinion of your ability to actually deal with 
what the situation is in a rational manner. I hope I make 
myself at least a little bit clear.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Akin.
    And we will begin with Dr. Carter.

STATEMENT OF HON. ASHTON B. CARTER, UNDER SECRETARY OF DEFENSE 
           FOR ACQUISITION, TECHNOLOGY AND LOGISTICS

    Secretary Carter. Thank you, Mr. Chairman, distinguished 
members of the committee. I appreciate the opportunity to be 
here with you to discuss DOD's tactical aircraft programs.
    I have a lengthy and detailed written statement. The 
Department has also provided you with responses to many 
questions you had in the letter of invitation to us, and we 
have also provided you with several independent reviews that 
importantly illuminated our department-wide review of the Joint 
Strike Fighter program, which is one topic I will be reporting 
on today.
    So with your leave, in my oral statement I wanted to 
describe the basis for and the main ingredients of the 
restructuring of the Joint Strike Fighter program to put it on 
a more realistic basis.
    Mr. Chairman, that is your path forward I will attempt to 
describe.
    And I hope, Mr. Akin, it is a realistic one. But I will do 
my best to describe reality as we judge it to be.
    And also I thought I would touch on the analytical 
foundation for the Department's decision not to pursue a second 
engine for the Joint Strike Fighter.
    I would, of course, be pleased to answer questions on other 
topics with respect to the force structure requirements. I am 
pleased to talk about that as well. I just thought in view of 
the time that that might be better pursued with the Navy and 
Air Force panel which follows me, but again, I am happy to 
address that.
    I am accompanied on this panel by Christine Fox, the 
Director of CAPE; Mike Gilmore, Director of Operational Test 
and Evaluation; and on the next panel by the service 
acquisition executives, Mr. Van Buren and Mr. Stackley. All 
four of those individuals participated in the internal reviews 
of JSF, which led to its restructuring, and they can all 
provide additional detail.
    JSF is our largest, as has been noted, critically important 
program, and it is important for the three services that are 
going to be depending on this aircraft, our international 
partners and, of course, you to know whether after the recent 
restructuring it is now on a realistic and stable path to 
complete development and testing and eventually a full 
production to produce 2,443 aircraft for us, the Marines, the 
Air Force and the Navy, and 734 for international partners.
    The easiest way to answer this question, I think, is to 
recount the sequence of events over the past several years. 
Again, full detail is provided in the written statement. But 
JSF's development began in 2001, and at that time the unit cost 
of a Joint Strike Fighter--there were 2,852 U.S. fighters 
planned at that time; now 2,443--was $50 million in 2002 
dollars, which would be $59 million today.
    In retrospect this estimate may have been unrealistically 
low, something we are trying to avoid in the future by 
requiring independent cost estimates early in the lifetime of a 
program, as is required by the Weapon System Acquisition Reform 
Act. But in any event, by 2007 the estimated cost had grown 36 
percent--namely, to $69 million in 2002 dollars.
    In late 2008--and this may go to a point you were making 
earlier, Mr. Bartlett--the first joint estimating team (JET) 
analysis was conducted--JET I. Ms. Fox will describe how this 
was done, but JET I found that JSF's costs were continuing to 
rise and that the development program was taking longer and 
therefore costing more than projected by the Joint Program 
Office and the contractor.
    Secretary Gates at that time determined that the JET 
estimate was credible, and early in 2009 he accordingly added 
$476 million to the program--that is, for fiscal year 2010--to 
try to arrest this trend. By November of 2009, a few months 
ago, JET completed a second analysis--JET II--that became one 
of the foundations for the restructuring.
    The JET II's results were substantially similar to those of 
JET I a year before--namely, the line at Fort Worth was still 
taking longer than planned to produce the initial JSF aircraft, 
and this was delaying flight testing and therefore the ramp-up 
to full rate production, and also costing more money, so that 
the unit cost of the aircraft, which had been $50 million in 
2002 dollars, would now be as much as $95 million--that is, up 
to 90 percent cost growth.
    So it was clear in November of last year that if we took 
the JET II estimate as credible, JSF would have a Nunn-McCurdy 
breach. Similar results from the JET over two consecutive years 
clearly indicated to the Department that we needed to take a 
more forceful management action this year than we had taken in 
light of the JET I estimate a year before.
    At about this time also two additional reviews were 
conducted. The JET, by the way, as I indicated, was conducted 
by Ms. Fox's office. My office sponsored an independent 
manufacturing review team, which looked at the performance of 
the manufacturing process, and also something we called a joint 
assessment team, to look at the performance of the engine, the 
F135 engine.
    All of these things came in together late last year, and we 
accordingly undertook department-wide reviews in November as 
though we were already in Nunn-McCurdy breach. This review 
continued through December and January, and the result was the 
restructuring announced by Secretary Gates in February.
    And I realize, if I may say so, during this time we were 
conducting the review and before the President's budget was 
announced, that there was not information available here, and I 
recognize that some of the comments you made, that that was 
frustrating. We will attempt to do better in the future.
    But that is what led up to the restructuring that Secretary 
Gates announced in February. And now let me describe the main 
features of that restructuring and the rationale for each.
    First, the Department undertook several steps to stop the 
development and test program schedule from slipping yet 
further. There were three actions. One was the purchase of an 
additional aircraft to add to test. That is just the physics of 
getting through the test points faster, if you have more test 
assets.
    So also secondly, the addition--or actually borrowing or 
loan of three developmental aircraft to--I am sorry, three 
operational test aircraft to developmental test--again, to 
hasten the process of completing developmental test.
    And third, integration of--or, sorry, addition of another 
software integration line to ensure that the writing of mission 
system software would not become the factor that lengthened the 
development schedule after we tried to take care of the 
lengthening of the developmental flight test program.
    With these three steps, the schedule slip that had been 
estimated by JET II to be 30 months of schedule slip was 
reduced to 13 months, a substantial, though not complete 
restoral of the original schedule.
    Second feature of the restructuring was recognizing that 
the three steps I just described cost money. The Department 
decided to withhold $614 million of fee from the contractor, 
since it was not reasonable for the taxpayer to bear the entire 
burden of what is, after all, disappointing performance by the 
program.
    I might add that the contractors have been part of this 
process from the beginning and have emphasized their commitment 
to better performance, and we are expecting that.
    Third, the Department directed that the results of the 
independent manufacturing review team I described earlier 
regarding the ramp-up to full rate production be adopted, 
meaning that the Joint Strike Fighter program should plan for a 
somewhat later--that is 13 months--and somewhat flatter ramp to 
full rate production than had been planned. This step had the 
effect of reducing concurrency and the program.
    For us, the Department determined that the JET II estimate, 
revised to take into account the changes I have already 
described, would be adopted as the program baseline for 
budgeting purposes throughout the future year's defense program 
and beyond--that is, that we would accept the independent cost 
estimate as the basis for the program.
    And that is the basis, Mr. Chairman, for what we hope and 
believe is a realistic forecast. I will come back to that point 
in a moment. But as I have mentioned also, accepting that 
forecast implies a Nunn-McCurdy breach.
    Fifth, the Department directed that the position of program 
executive officer for the Joint Strike Fighter program be 
elevated to three-star rank to give a fresh eye and vigorous 
management to the Joint Strike Fighter. And I am pleased that 
President Obama has nominated Vice Admiral Dave Venlet to this 
position.
    These five steps, then, are the JSF restructuring in a 
nutshell. We believe that this restructuring puts JSF on a 
realistic path to restore its performance. Over the next few 
years we will be looking closely to the program to show 
progress against a reasonable set of specific objectives 
according to this overall plan.
    We will be managing aggressively to see if we can improve 
the performance of the program relative to the JET II forecast, 
including the possibility of buying more than 43 aircraft in 
fiscal year 2011 and earlier transition to fixed price 
production contracts.
    While, Mr. Chairman, the plan is realistic, this is still a 
challenging program entering its period of flight tests, and 
these are all forecasts--not weather forecasting, but it is 
program forecasting. Reality is going to get a vote.
    At the same time no fundamental technological problems have 
surfaced in the reviews to date, nor have the capabilities of 
the aircraft changed.
    In sum, in response to the JET and other estimates of the 
JSF program's performance and the impending Nunn-McCurdy 
breach, the Department has undertaken a fundamental 
restructuring of the program. We believe it is now on a 
stronger footing.
    We now turn to the subject of whether two engines should be 
part of the Joint Strike Fighter program rather than one. The 
Department's decision not to support the second engine is a 
judgment informed by the analysis conducted by CAPE under Ms. 
Fox and which has been provided to the committee.
    We weighed the very real upfront costs of preparing a 
second engine for competition, estimated at $2.9 billion, 
against the possible long-term savings produced in the out 
years from the competition assumed in the analysis. The 
analysis shows that under these assumptions the long-term 
savings calculated just balanced the large upfront investment.
    However, the assumptions that need to be made to produce 
this break-even result are optimistic and in some cases 
unrealistic. For example, the analysis assumes that the second 
engine quickly follows upon the same learning curve as the 
first engine, that the additional learning will outweigh the 
fact that each manufacturer will build fewer engines and 
therefore proceed less far down the learning curve, and perhaps 
most importantly, that there will be true competition.
    A more likely dynamic is a series of split or shared buys, 
since JSF will be procured by a diverse set of customers, many 
of whom are unable or unwilling to purchase from two engine 
manufacturers. We therefore concluded that the Department is 
unlikely to realize these long-term savings and that the $2.9 
billion required to prepare the second engine for competition 
would be better spent on other critical military needs.
    We also considered potential non-financial benefits of 
having a second engine for the F-35, but did not find them 
compelling. On this basis the Department is respectfully 
requesting that the Congress not direct pursuit of the second 
engine again this year.
    Thank you, and I look forward to your questions.
    [The prepared statement of Secretary Carter can be found in 
the Appendix on page 57.]
    Mr. Smith. Thank you very much, Mr. Carter.
    Ms. Fox.

STATEMENT OF HON. CHRISTINE H. FOX, DIRECTOR OF COST ASSESSMENT 
   AND PROGRAM EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Ms. Fox. Thank you, Mr. Chairman and distinguished members 
of the committee. Thank you for the opportunity to appear 
before you today.
    Dr. Carter's statement and our written testimonies provide 
you with the specific information about the Joint Strike 
Fighter independent review and the subsequent restructuring. 
Today I would like to quickly emphasize just a few key points.
    First, CAPE conducts independent cost estimates for major 
weapon systems providing the Secretary and OSD leadership an 
estimate derived independently from the contractor and the 
program office. The Weapon Systems Acquisition Reform Act 
recently increased the responsibility and authority of CAPE in 
the conduct of these estimates. In the case of JSF, we went one 
step further and built a team of experts from the defense 
tactical aircraft community.
    Specifically, the Joint Estimating Team, or JET, was 
composed of multifunctional government experts drawn from the 
Navy, Air Force and OSD staff. The members of the team provided 
technical expertise across the areas of air vehicle and mission 
systems engineering, testing and cost estimation. The JET 
conducted comprehensive onsite reviews with the prime 
contractor and each of the major subcontractors for the JSF 
program.
    They then benchmarked this information against past 
programs to forecast the likely path of events going forward. 
As Dr. Carter just explained, the JET conducted two reviews; 
the first, JET I, conducted last year and was made available to 
the OSD leadership and the Congress. This past summer, the 
Deputy Secretary of Defense directed that the JET I be updated 
and the result of this update, JET II, were consistent with the 
findings of JET I and led the Secretary to significantly 
restructure the program as Dr. Carter has just described to 
you.
    It is important to let you know that this restructuring in 
my view is completely aligned with the findings of the JET II 
and fully consistent with Congress' intent of using realistic 
cost estimates and schedule information to assess and structure 
a program. In particular, the JET worked because it is based on 
historical comparisons, allows more time for tests and allows 
for more test points than was in the original program allowing 
for more test discovery.
    It is difficult to mathematically calculate the precise 
confidence levels associated with independent cost estimates 
prepared for major acquisition programs. Based on the rigor of 
the methods used in building CAPE estimates, the strong 
adherence to the collection and use of historical cost 
information and the review of the applied assumptions, we 
project that it is about equally likely that the JET estimate 
will prove too low or too high for execution of the 
restructured program as described.
    Finally, I would like to discuss the analysis behind the 
Secretary's decision not to fund the alternate engine for JSF. 
We have provided you with more details on this, but quickly I 
wanted to let you know that we were able to conduct a business 
case analysis of the alternate engine and that analysis after 
accounting for all of the--costs to date suggests that we are 
at the break-even point in net present value terms.
    Business case analysis included several optimistic 
assumptions. Dr. Carter has described some. Another is that the 
start of the competitive engine procurement would begin in 
2014. CAPE was also able to estimate that DOD would have to 
invest approximately $2.9 billion to full fund the alternate 
engine on a more realistic schedule in light of the program 
restructuring to the point where it could participate in a 
competitive procurement that we now estimate would be in 2017.
    We could not, however, quantify the intangible values of 
competition that are often cited. Based on the fact that the 
additional early costs to the program are known, but the 
intangible benefits of competition are speculative. The 
Secretary decided that we could not afford to invest the 
additional $2.9 billion. Thank you again for the opportunity to 
appear before you today.
    [The prepared statement of Ms. Fox can be found in the 
Appendix on page 81.]
    Mr. Smith. Thank you. Mr. Gilmore.

STATEMENT OF DR. J. MICHAEL GILMORE, DIRECTOR, OPERATIONAL TEST 
       AND EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Dr. Gilmore. Chairman Smith, Chairman Taylor, members of 
the committee, my primary concern is that the Joint Strike 
Fighter Program be structured to conduct robust developmental 
testing so that we will be ready to do the operational testing 
which will confirm the combat capabilities of the aircraft in 
January 2015 and complete that testing in April 2016.
    We don't want discovery of problems--significant problems 
to be postponed to operational testing because problems 
discovered that late will be more costly and more time-
consuming to fix than if they are discovered early. The only 
way to assure that is to have a robust developmental test 
flight program. The changes to the program that Secretary Gates 
and Dr. Carter have directed are going to be key to assuring 
that that robust developmental flight test program occurs.
    And the important changes that have been made are, of 
course, providing additional flight test aircraft or additional 
flight test aircraft, providing the resources in time needed to 
develop, deliver and test effective software because the 
mission system software is very complex and provides that 
combat capability in the aircraft.
    I have to take into account realistically the inevitable 
discovery of problems during flight testing which means you 
have to have sufficient time to do the flight testing. And you 
have to provide the engineering and other resources needed to 
maintain an adequate pace of testing and the changes that have 
been directed to address all of those issues. So my concern is 
that the developmental flight test program be robust, the 
restructured program takes the steps necessary to do that. 
Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Gilmore can be found in the 
Appendix on page 89.]
    Mr. Smith. Thank you. Mr. Sullivan.

 STATEMENT OF MICHAEL J. SULLIVAN, DIRECTOR OF ACQUISITION AND 
        SOURCING, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Thank you, Mr. Chairman, Chairman Taylor, 
distinguished members of the committee. I am pleased to be here 
today to discuss the F-35 Joint Strike Fighter Program and our 
updated analysis to the competitive engine discussion.
    In brief, Mr. Chairman, even given the strong actions taken 
by the Department to recently restructure the Joint Strike 
Fighter Program, it continues to struggle with increased costs, 
slow progress and risk of not being able to deliver expected 
capability and quantities of aircraft to the war fighter on 
time. It is also important, I think, to note that setbacks and 
costs and deliveries of the Joint Strike Fighter directly 
impact modernization plans and retirement schedules for our 
aging legacy aircraft that the fighter is slated to replace.
    The recent restructuring increase program acquisition costs 
by $46 billion in then-year dollars compared to the program 
baseline approved in 2007, about $92 billion when compared to 
the original 2001 baseline. It also did the things that Dr. 
Carter went through which we think a lot of those things are 
very important to put--to actually putting the program on firm 
footing and having much more reasonable costs and schedule 
estimates at this point.
    And another thing it did that we found important was it 
reduced near term procurement quantities by as much as 122 
aircraft which, again, we think helps reduce the risk of buying 
aircraft that may not be through flight test at that time. That 
is through 2015. These actions should put the program on a 
firmer footing and they should establish more reasonable 
estimates for aircraft deliveries; however, there is still 
substantial overlap between development testing and production 
activities.
    Slowed by manufacturing delays, late aircraft deliveries 
and low productivity, the flight test program has barely begun 
and only completed about 10 percent of its planned sorties 
through 2009. In addition, the program is relying on an 
extensive, but largely unproven network of ground test 
laboratories and simulation models to evaluate aircraft 
performance.
    It is developing and integrating very large and complex 
software requirements and is still maturing some of the 
technologies that are essential to the cost savings, the 
program plans to get in the lifecycle due to logistical support 
requirements.
    With the restructuring in place, the Department still plans 
to procure up to 307 aircraft at an estimated cost of $58.2 
billion through 2015 before completing flight testing. We view 
that as very risky. These aircraft are currently being procured 
using cost reimbursable contracts, which I think the Chairman 
and the committee members understand that that indicates that 
there is a great deal of cost risk still in the aircraft due to 
many uncertainties the contract doesn't feel prepared to bid a 
fixed price. I believe Dr. Carter did address that, and I think 
that the Department now is trying to move much more quickly 
towards fixed price contracts. We are hoping that they can do 
that. That would be good.
    Now, I will turn to the alternate engine discussion. As 
requested for this hearing, we have updated the analysis that 
we have done in the past for this committee to assess whether 
the changes to the Joint Strike Fighter Program that Dr. Carter 
just discussed have impacted the cost and benefits of sole 
source and competitive scenarios for acquisition and 
sustainment of the Joint Strike Fighter engine.
    Our updated analysis indicates that given certain 
assumptions, competition may reasonably be expected to provide 
enough savings over the life of the engine to offset the 
investment in developing a second engine source. In a sole-
source scenario, the engines will cost an estimated $62.5 
billion in 2002 dollars over the remainder of the program. 
Additional costs are between $4.5 billion and $5.7 billion may 
be needed to maintain competition.
    Some of that is the upfront investment that we have 
discussed to get the other contractor through development. I 
think that is somewhere between 1 and $2 billion and the rest 
of that is due to the increased overall costs--the recurring 
costs per engine that--and the learning curve losses that will 
take place if the competition goes forward. We ascertain that 
the costs--that all of that cost, the $4.5 to $5.7 billion 
could possibly be recouped if competition were to generate 
approximately 10 to 12\1/2\ percent savings over the life of 
the program.
    Air Force data from past engine programs where competition 
was introduced into a sole source environment indicates that 
savings of that much or more have been achieved in the past; 
however, whether that happens on this program will ultimately 
depend on the final approach for competition, the number of 
aircraft eventually purchased, the ratio of engines awarded to 
each contractor and when the competition actually begins.
    In addition to cost savings, most experts also agree that 
there are other benefits to competition that are not directly 
tied to savings such as improved contractor responsiveness, 
engine reliability and technical innovation. Currently, both 
the primary and second engine sources have experienced cost 
growth and delays. The F135 primary engine development cost is 
now estimated at approximately $7.3 billion, a 50 percent 
increase over the current budgeted estimate.
    And the most recent unit costs for the conventional engine 
is now $17.7 million, which is 42 percent higher than the 
original estimate. Similarly, the unit cost for the short 
takeoff and vertical landing engine rose from $27.6 million to 
$33.4 million, a 21 percent increase. As planned, the F136 
alternate engine development is about three years behind the 
F135 program. It also is facing cost and schedule challenges 
similar to the F135. Both programs have experienced about 21-
months' delays for their initial release for flight testing.
    Mr. Chairman, that concludes my prepared statement. I would 
be happy to entertain questions.
    [The prepared statement of Mr. Sullivan can be found in the 
Appendix on page 108.]
    Mr. Smith. Thank you very much. A lot of ground to cover. A 
lot to ask about. Fortunately, there are a lot of members on 
the committee who are very informed of this program. So we will 
spread that around. But I will start by asking Dr. Carter and 
Ms. Fox about these cost estimates going forward.
    And I realize as you quite accurately said, Dr. Carter, 
events will happen and we will have to adjust to them, but I 
want to get some greater idea for how much we have clarified 
the picture. I mean, going forward, there were a lot of 
different costs, but as I understand it, you are still looking 
at to try to estimate which are lifecycle estimates, lifecycle 
costs. There are various military construction pieces. There 
are issues with the--I am into Mr. Taylor's territory here, but 
with the C model, I think it is, if I have got that right, the 
one that takes off--the Navy version, what is going to do in 
terms of how we have to adjust aircraft carriers.
    So different military construction pieces. And I understand 
that CAPE is still looking at some of this. Can you give us 
some idea of what you are done with, what you are still looking 
at in terms of what are sort of if you--it is a terrible 
phrase, but the anticipated surprises that you still haven't 
quite been able to calculate? Can you turn your mike back----
    Secretary Carter. Yes, Mr. Chairman. The CAPE estimate upon 
which we base the restructuring was of the development program, 
the ramp-up to production and initial production because that 
is the part--that is the phase that is immediately upon us.
    Mr. Smith. Right.
    Secretary Carter. And we had that estimate, and then we had 
another estimate from the program office and the contractor 
which was a--which showed less cost and a more accelerated 
schedule. The essence of accepting the JET estimate is in 
adopting it is recognizing what I certainly believe, and I know 
the Secretary does, that that is a more credible forecast for 
those three phases than was the program office's and the 
contractors'.
    Which was a--which showed less cost and a more accelerated 
schedule.
    The essence of accepting the JET estimate and adopting it 
is recognizing what I certainly believe, and I know the 
Secretary does, that that is a more credible forecast for those 
three phases than was the program office's and the 
contractor's.
    Beyond that, when we get out beyond production to 
sustainment, that is, of course, many years in the future, so 
there isn't a managerial action that needed to be taken at this 
moment about that, but it is something we need to manage going 
forward--what are the costs of these airplanes going to be to 
operate them in the years in the future when they come? Not too 
early to take a look and begin to manage that.
    And that is something we will be looking toward, going 
forward.
    It doesn't affect our managerial decisions at the moment, 
but you are absolutely right, that is a phase out there in the 
future that will need to be costed also.
    But we think we have our most realistic estimates of the 
development, ramp-up to production and production.
    I will repeat what Ms. Fox said about these are so-called 
in the art that her office practices, a 50 percent estimate, 
meaning--and this isn't math, it is JET that there is in the 
judgment of the estimators a 50 percent chance that the cost 
will be greater than estimated and a 50 percent chance less.
    That is why I talk about, it is not weather forecasting, 
but it is forecasting.
    We are giving you our most realistic judgment, and we are 
trying to manage to that realistic--what was quite clear was 
that the path we were on was not realistic.
    Mr. Smith. Fair enough.
    Dr. Gilmore, Mr. Sullivan, if I could have you deal with a 
couple different aspects of what is one of the central problems 
at this point, we are going to be procuring aircraft while we 
are still testing them. And there is always a delicate balance 
there.
    I mean, ideally, you would like to have it tested and know 
exactly what you have got, and you are good to go. But the 
rapid pace of technology and the changes make that difficult 
with some of our new systems.
    But I want to get a greater idea of the risks involved with 
that plan. Again, our hope is, I think, by 2016--I get my As, 
Bs and Cs, mixed up here, but two out of the three will be 
ready to go into production mode by 2016, or ready to be used 
at any rate, the other one in 2012.
    At the same time, we are sort of testing as we go. How do 
you balance those risks, in terms of what--and it is hard to 
say, because you don't know exactly what you are going to 
figure out in the flight testing. On the other hand, we have 
been testing it for a little while and have some idea of what 
is going on.
    Is it a good risk that is being taken here by saying that 
we are going to, in essence, bet on the come, we are going to 
start building this thing, and we are going to learn as we go 
and then make changes to it as we go?
    What are the risks there? And how realistic do you think 
the approach that has been laid out?
    Dr. Gilmore. While I would observe that we are really just 
at the beginning of a flight test program now----
    Mr. Smith. Right.
    Dr. Gilmore [continuing]. In terms of, you know, total 
flight tests, we have flown in System Development and 
Demonstration (SDD) program, we have flown 37 flights out of 
over 5,700 that will be required. So we are at the beginning 
now.
    With regard to how many aircraft will be delivered, once 
flight test has begun--and it has just now started--the program 
will be delivering more aircraft than almost any other aircraft 
program have been delivered, as--before flight testing is 
complete. That is just the situation that we are in.
    Obviously, we will know more and more as we go along, and 
the rate of discovery, of knowledge, of accruing knowledge is 
going to increase rapidly under current plans. That is also 
consistent with past history.
    So, I mean, there is concurrency in the program. The 
concurrency is greater than it has been in the past. But 
there--you know, the history of these programs is that there is 
concurrency.
    Mr. Smith. Right. That strikes me as a fairly big risk, as 
described, given how early we are in the testing portion, by 
comparison, to be making that big a production commitment.
    Dr. Gilmore. Well, on the one hand, there is risk that you 
could run into structural problems and have to fix those, and 
that would--could potentially be time-consuming and costly to 
fix.
    Now, so far, there is no indication of major structural 
problems, and they have completed a good deal of the ground 
testing of the structure, although that is not completely--that 
is not completed.
    There is also risk that you could run into problems 
developing the mission systems software. However, if you run 
into those problems, a lot of those problems can be fixed not 
by changing the hardware, but by continuing to work on the 
problems fixing the software and then doing a new software 
release.
    So a good deal of the risk in this program is associated 
with developing the mission system software. I mean, for 
example, the mission system software lines of code are 2.5 
times in Joint Strike Fighter at the current estimate than they 
were in the F-22.
    But you can fix those kinds of problems without major 
hardware changes in a number of instances. So that that 
counterbalances that risk.
    Mr. Smith. Mr. Sullivan, did you have anything to add on 
that?
    Mr. Sullivan. Well, our perspective on that is, first of 
all, there is actually in the acquisition policies at the 
Department a kind of a rule that you shouldn't procure more 
than 10 percent of your total buy in Low Rate Initial 
Production (LRIP), which is what they are in now.
    And you should try to get the fixed--you know, the fact 
that these are cost-plus contracts say a lot. If the Department 
can get this through a fixed price environment, that will 
settle a lot of this risk.
    But, in addition to that, I think the risk moving forward 
is the--Dr. Gilmore alluded to the complexity of the software. 
And I think it is--there is a lot of risk left in that, because 
to get to the full-capability aircraft, which is Block III 
software, I am not sure how far along the program is in doing 
that. They haven't even established the lines of code for that.
    So they have got an enormous effort in software. They 
haven't flown--I think that the development flight test program 
now has probably, basically, got a lot of safety-of-flight 
issues, and has not really started on the full performance 
envelope of the aircraft.
    So there is risk something is going to happen.
    Mr. Smith. I am just going to ask one more question, and 
then turn it over my colleagues. And that is, you know, sort of 
the crux of the issue for us in the short term.
    In 2010, we, in response, to your requests, you know, put 
in a certain number of production aircraft procurement. Shortly 
after we authorized and appropriated that, came back and said 
you only needed half of those.
    How confident are you in the number that you are asking for 
us this year? Because on the surface of it, we are not 
confident at all. And that is a big chunk of our budget that we 
are putting to this. And we would hate to do that again, and 
then have, you know, the number change, six months after we did 
it.
    What is different this year from last year on that issue?
    Secretary Carter. Is this to me?
    Mr. Smith. Yes, Dr. Carter, sir.
    Secretary Carter. We have slowed the ramp down, 
considerably, going forward. And that was one of the most 
important decisions we made in the restructuring. It was in 
recognition of some of the risk that has been adduced here, and 
we did try to reduce that risk, including the concurrency risk.
    If I--we are trying to strike a balance here, Mr. Chairman, 
in the concurrency issue.
    On the one hand, if you--if we tried to pull the ramp back, 
the ramp-up to production and steepen it unrealistically, we 
would have excessive concurrency and an excessive risk that we 
would discover in the course of flight testing things that had 
to be retrofitted and fixed and that would be expensive.
    Against that, if we slip the ramp too much or flatten it 
more than we have already, you are adding cost, and adding 
schedule, unnecessarily.
    So we are trying to fix that balance. We think we are in 
the sweet spot of that balancing, as best as we can ascertain 
it now. So we have slipped the ramp and flattened it. We are 
not recommending slipping it further and flattening it further, 
because that increases cost and delays the delivery of the 
aircraft to the services.
    We are not recommending keeping the ramp, however, where it 
was before the review began, because that seemed--that not only 
seemed, our judgment was that that was unachievable.
    If I may comment, also, on the fixed price. It is a very 
important point, and I am glad Mr. Sullivan raised it.
    The willingness to go to fixed price is a measure of 
whether the contractor judges that the assembly line is stable 
and, therefore, the contractor is able to predict its 
performance well enough to offer a fixed price.
    So that is an indicator--that is why we are using it, and I 
indicated that in my opening statement. We want to move to 
fixed price contracts as early as possible in LRIP. That asks 
the contractor to make a commitment to the stability of the 
line. The contractor has indicated a willingness to do that. 
That is a good deal for us----
    Mr. Smith. Right.
    Secretary Carter. A willingness, but they have not actually 
done it----
    Mr. Smith. Yet.
    Secretary Carter. Yes, we are in negotiations now.
    Mr. Smith. Okay. I do have to--if you have something really 
quick----
    Secretary Carter. Well, I just wanted, very quickly, to say 
that I think another issue in all this is the ability for them 
to deliver aircraft from--from the manufacturing facility now. 
That is not going well. And----
    Mr. Smith. Right.
    Secretary Carter [continuing]. And with flight testing, 
there is going to be more design changes. There is an awful lot 
of design change traffic hitting the floor now. So I think 
manufacturing this aircraft moving forward is going to be--that 
is another one of the risks on the program.
    Mr. Smith. Mr. Bartlett.
    Mr. Bartlett. Thank you very much, Mr. Chairman.
    Mr. Sullivan, how long after we started the development of 
Engine 135 did we start the development of Engine 136?
    Mr. Sullivan. Umm.
    Mr. Bartlett. I think--if my memory serves me right, it was 
46 months. Is that correct?
    Mr. Sullivan. Yes, I think, approximately, it is about a 3- 
to 4-year lag.
    Mr. Bartlett. Forty-six is the number I remember.
    Mr. Sullivan. Yes.
    Mr. Bartlett. You said that the 136 was 1 year behind the 
135, which means in fact, that its development is going better 
than the development of the 135.
    Mr. Sullivan. Well, no, sir, I think I may have made a 
mistake, but I think it is three--I said it was three years 
behind. That is what I meant to say, anyway.
    Mr. Bartlett. It is my understanding that, in fact, the 
development of the 136 is proceeding faster than the 
development of 135. This 3 years behind 135 is because its 
development started 46 months, nearly 4 years behind. So it is, 
in reality, almost a year ahead of the development of the 135. 
Correct?
    Mr. Sullivan. I guess, yes, if taking the--the three--I 
would have to look at that, but, yes, it could be, and we can 
take a look at that.
    Mr. Bartlett. If you say it is three years behind, that 
leads people to believe, gee, this is a lousy engine. They are 
even behind in development.
    The fact is, they are, in fact, ahead in development by----
    Mr. Sullivan. It was planned--yes, the program was planned 
to be three years behind so that it could--they could ramp into 
competition.
    Dr. Gilmore. Congressman Bartlett, the information I have 
is that the development of the 136 is about 2 years behind the 
schedule that was planned in 2005, which placed--you know, the 
development of the engine did start, by design, 4 years later 
than the development of the 135, but the 136 is about 2 years 
behind the schedule that the contractor and the program office 
had laid out as recently as 2005.
    Mr. Bartlett. And how far behind is 135?
    Dr. Gilmore. It is about the same amount behind.
    Mr. Bartlett. That much or more is my understanding.
    Dr. Gilmore. Yes, it is about the same amount behind. They 
have had--both engines have had similar kinds of problems, the 
kinds of problems that should be expected when you are trying 
to develop and build a high-performance jet engine.*
---------------------------------------------------------------------------
    * The explanation of the scheduled delays provided by the DOT&E 
director is contrary to the information provided at a later date by the 
Air Force and F-35 Joint Program Office, shown in the Appendix on page 
197.
---------------------------------------------------------------------------
    Mr. Bartlett. Dr. Carter, in both your written testimony 
and your oral testimony, you noted that analysis and cost 
estimates done in November of 2009 showed that the program 
would trigger a Nunn-McCurdy breach. How come we didn't know 
that then?
    Secretary Carter. We had received the JET report in 
November 2009. It was an estimate at that time. It was very 
different from what we had--our program office was telling us, 
which was the official baseline at that time.
    It was then, around the turn of the year, that we completed 
our review of the JET estimate, and concluded that the JET 
estimate, and not the program office estimate, was the more 
realistic of the two.
    It was January when the Secretary of Defense adopted the 
JET estimate as the projected way forward. And then he 
announced that in the budget in February. And I--the--and I 
have stated before that JSF was going to be a Nunn-McCurdy 
breach. It will be a matter of days before the official 
declaration goes.
    But once we accepted the JET estimate, or adopted that, 
that meant that the program would be in Nunn-McCurdy breach, 
because the forecast of the program's progress made in the JET 
estimate suggested greater than 50 percent cost growth, which 
is the trigger for Nunn-McCurdy.
    Mr. Bartlett. Are there regulations, written or unwritten, 
in the building that precludes including us as a partner in 
those discussions?
    Secretary Carter. I would have to get back to you on the 
technicality of that. Certainly, in--as a general matter, no, 
we try promptly to keep this committee informed of important 
developments in programs that are in your purview.
    [The information referred to can be found in the Appendix 
on page 201.]
    As I said when I--earlier, because of the particular timing 
of the JET estimate and the Department's deliberations, which 
were in the December-January period leading up to the release 
of the President's budget, it wasn't until the President's 
budget was released that the--the JET estimate was--which was 
included in that budget--was available.
    We did, however--it is my understanding that the JET 
estimate, even back in 2008, was made available to the 
committee.
    Mr. Bartlett. Thank you.
    Your statement goes on to say that ``Program management 
contractors and the Department need to surface, candidly and 
openly, issues with this program as they arise, so that 
Congress is aware of them and they can be addressed.''
    In the spirit of that statement, it would have been nice, I 
think, if we would have been a part of that two-month 
discussion between November and January. Would you agree?
    Secretary Carter. I promise that, going forward, we will be 
as open as we possibly can, and candid about the--what is going 
on in this program.
    I firmly believe, as the acquisition executive, that you 
have got to create a climate in which people are willing to 
surface issues in programs. That is the only way you solve 
them.
    And that is the only way we can do it--programs are, 
particularly at this particular inflection point in the 
transition from development to production, they are going to 
have issues. And if you don't create an environment in which 
those things are surfaced, you are never going to solve them.
    Mr. Bartlett. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you. For members' information, we have 
had, I think--how many--what, four votes, I think it is called, 
one 15-minute, three fives. We are going to get to Mr. Taylor, 
at least, before we go, push this up a little bit, and then we 
will have to take a break and come back.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And, Mr. Carter, I have been listening to your rational 
arguments on the dual sourcing for the engine. And you tell me 
that, because of the huge Research and Development (R&D) costs 
that, even if you get a second source in there, by the time you 
have bought all these engines, you end up with--I think the 
word you used was ``a wash.''
    I am curious, since that is the way you have chosen to 
proceed, are you demanding that the vendor, the successful 
vendor, provide to the services a technical data package, that 
we would own the specifications to that engine?
    The reason being is, if R&D is the reason that makes that 
second engine unaffordable, then you are only paying, in 
effect, for one case of R&D. But then you are in a position to 
take those specifications and see if a second vendor wants to 
build the engine that you have now blessed.
    Have you--and we are doing that with some other things 
right--as we speak--in Navy shipbuilding. Have you pursued that 
line of thought at all?
    And if not, tell me why.
    Secretary Carter. The--that particular approach to second-
sourcing engines was tried once before in the case of the F/A-
18 and was not successful.
    Mr. Taylor. Walk me through it.
    Secretary Carter. Just to answer your specific question, we 
have not required the vendor of the F135 engine to produce the 
technical data package that would allow a build-to-print 
version of a competitive engine.
    The competitive engine program that has been pursued has 
been an independent development of a second engine.
    Mr. Taylor. Okay, I am with you, Dr. Carter, but I am just 
telling you, without the technical data package--we are paying 
for this research. From what I can tell, we are paying for 
everything in this research, as a Nation.
    Then why should we not have the knowledge that is gained?
    Why should someone have a monopoly on that knowledge for 
replacing that engine at some point, for fixing that engine at 
some point?
    Wouldn't it be a wise acquisition tool for our Nation to 
own that technical data package?
    Secretary Carter. I will get back to you with a specific 
answer to that question. What I can tell you is this, regarding 
the R&D, two things. One is that, with respect to the R&D on 
the so-called second engine, the F136, that is a part of but 
not all of the cost to prepare that to compete.
    [The information referred to can be found in the Appendix 
on page 201.]
    Secretary Carter. The other thing that I think may be 
useful to say at this point is that we do value competition in 
the military jet aircraft field and innovation in that field. 
And we have a number of programs to increase the fuel 
efficiency, the thrust-to-weight and other desirable features 
in the military aircraft engine area.
    So the F135----
    Mr. Taylor. So doesn't that--okay, so then you just talked 
yourself into a dual source. So which one is it?
    Secretary Carter. Not a dual source for the Joint Strike 
Fighter engine. I would like to have more than one, and we do 
have more than one competitor in the military aircraft field. I 
don't need to have two duplicative engines for the F-35 in 
order to have two parties in the military jet aircraft engine 
business.
    I do want that, and some of our tech-base programs, in 
addition to developing technology, have that purpose.
    On the question of the second engine for the F-35, I have 
the greatest respect for people who come to the opposite 
decision from the one we have come to. I know that many people 
with great expertise do, and I completely respect that point of 
view.
    It is simply a matter of looking at up-front costs, which 
are very real, and assumed savings as a result of a competitive 
process that is much harder to have confidence would actually 
produce those savings.
    And one just has to make a judgment between those two. We 
made a judgment that the large near-term costs, which displace 
other things we could spend our money on, are not--those costs 
are not outweighed.
    But again, I respect people who come to the other view. We 
needed to make a judgment between those two cases, and this is 
the judgment that we have made.
    Mr. Taylor. Okay, Mr. Carter, not to belabor this, because 
there are other people with good questions that--but I would 
like you, say, within the next two to three weeks, certainly 
well before markup of this bill, to visit with me and give me a 
good reason why we should not own that technical data package?
    Thank you, Mr. Chairman.
    Secretary Carter. I will get back to you on that. I don't 
have a good reason, as I sit here now. I promise I will get 
back to you on that.
    [The information referred to can be found in the Appendix 
on page 201.]
    Mr. Smith. Thank you, Mr. Taylor.
    Mr. Wilson, we will try and get your five minutes in before 
we go over and vote. You are next in line. Mr. Akin had to go 
somewhere. We will get him as soon as we get back. Mr. Wilson?
    And then, after him, we will go vote and come back.
    Mr. Wilson. Thank you. Mr. Chairman.
    And, Dr. Carter, last year, the F136 development maturation 
to competition was expected to be completed by 2014. This year 
there is a 3-year F136 schedule delay to 2017.
    Why does the Department believe that the F136 development 
should take an additional 3 years?
    Secretary Carter. The analysis of the preparation of the 
F136 engine for competition was done by CAPE. So if I may ask 
Ms. Fox to answer that question?
    Ms. Fox. Certainly. There are two fundamental factors that 
have caused us to look at moving the competition from 2014 to 
2017. One has already been touched on, and that is that the 136 
is behind their predicted schedule for development.
    And the other is, frankly, the restructuring of the program 
overall. In order to get the engines in a place where they can 
compete, we need to have some directed buys. They need to be 
sufficiently mature in order to successfully compete. Given 
that we have slowed the ramp and moved the program out, we need 
planes to do that with.
    And so it has just, by mostly the nature of the 
restructuring, pushed it out--plus, some of the delay in the 
136, which we want to give them time to catch up. It is those 
two factors.
    Mr. Wilson. Well, I thank both of you for being thoughtful 
on that issue.
    And, Mr. Sullivan, you question, in your March report, 
whether the current plan for ramping up production of F-35s is 
prudent. Do you believe procuring fewer F-35s in fiscal year 
2011 would decrease the program risk?
    If so, what leads you to believe this?
    Mr. Sullivan. I think we view it as any aircraft that you 
get out of the near term, fiscal year 2011, specifically, would 
reduce risk to the buyer. And we base that on a couple of 
things.
    Number one, as we said earlier, the lack of development 
flight testing that has been done so far, so that there are 
still--there is a lot of unknowns about the design and about 
how the software is going to work and the hardware is going to 
work.
    But in addition to that, we think it is prudent because, as 
I alluded to earlier, they are still having--the contractor is 
still having trouble learning how to build the aircraft. It is 
not coming down the learning curve real well.
    So, in effect, there is, kind of, a backlog of aircraft, as 
we speak. I think, in fiscal year 2010--well, I think there is, 
like, 28 aircraft on order now, and this year, they are asking 
for another 43. You are beginning to get a backlog of aircraft 
on order that we are not sure they are going to be able to 
build within two years.
    Mr. Wilson. And then, I do want you to have--the 
communities I represent, Beaufort, South Carolina, the Marine 
Corps Air Station; I represent communities adjacent to McEntire 
Joint Air Base, Eastover, South Carolina. And those communities 
are--are hopeful about F-35s.
    And so any way that we can--I can be supportive, please let 
me know. The communities I represent enjoy the sound of 
freedom. So we would love to have them.
    Secretary Carter. Congressman, may I make a comment on 
the--in response to the last question?
    Mr. Wilson. Yes.
    Secretary Carter. There are two kinds of risk here. And I 
really think we need to balance the two risks, at least. We are 
trying to do that.
    One can reduce the risk of the kind that Mr. Sullivan is 
referring to by waiting until all the testing is done and then 
starting production. That reduces that risk, but it means that 
you don't get the airplanes until later and they cost more.
    So one can't talk about only one kind of risk. There are 
two risks here that are being balanced. One is the risk 
associated with concurrency, which Mr. Sullivan is talking 
about, which is real, but one has to balance against that the 
risk of slipping the schedule and the ramp to the point where 
production is uneconomical and jets are delivered later than 
they otherwise could be.
    That is the balancing that we are trying to do. So risk has 
several dimensions to it, and just reducing risk by slipping 
the program introduces yet another kind of risk.
    We are trying to balance those two, and in the restructured 
program, have done our level best to strike that balance.
    Mr. Wilson. And I just can't imagine all the different risk 
and the balancing you have to do. And--but thank you for 
expediting, however.
    I understand the official restructuring acquisition 
decision memorandum has been recently approved, Dr. Carter. You 
mentioned that, if contractors can execute a development 
program and/or deliver aircraft at lower costs, you will work 
with Congress to procure additional aircraft.
    What will be the incentives for the contractor and the 
government team to reach these milestones?
    Secretary Carter. It is in the interests of the contractor 
to get up that production learning curve, have confidence in 
the Department of Defense and in you, in the services, in the 
international partners in the ability to produce aircraft.
    So it is very much in their interests to produce more than 
43 aircraft in fiscal year 2011, if that is at all possible. We 
are trying to use that incentive to get better performance. And 
that is a commitment the contractor has made, and I would like 
to hold them to and enjoy the benefits of.
    Mr. Smith. On that note, we have to go. We will hopefully 
be back in 20 minutes to a half hour. There are four votes, so 
we are about out of time on the first vote, and then we have 
got the next three, so we should be able to maximize our time.
    See you in a few.
    [Recess.]
    Mr. Smith. If we could have everybody sort of re-find their 
seats. We are done now. Members should be drifting back in here 
shortly. Want to make sure we maximize our time. Thank you.
    And in the spirit of maximizing our time, I will ask a 
couple of questions while we are waiting for some other members 
to get back. Mr. Akin will be first up when he returns.
    Obviously the main focus of this hearing is the Joint 
Strike Fighter because of the large portion of our fleets that 
it is going to make up.
    But could you talk a little bit about some of the other 
options in terms of how we get to the force structure that we 
are looking for at the various points, 5, 10, 15, 20 years out, 
and in particular what role existing aircraft--the F-18 and the 
F-15 and the F-16s--play in that, and how the slippage to the 
right of the JSF can affect that and how also determinations on 
things like what is the realistic life cycle for existing F-15s 
and F-16s. Are there ways to retrofit them to give them a 
longer life?
    What sort of--are you playing around with those other 
pieces as well, and how do they fit into our long-term--well, 
short-term and long-term force structure demands?
    And, Dr. Carter, I will let you go ahead and start us off 
on that.
    Secretary Carter. Thank you, Mr. Chairman. I will do that, 
and then probably ask Ms. Fox, if I may. And then the witnesses 
in the panel that come after us, I know, are prepared to 
discuss that also.
    A couple of comments on that. One is that our principal 
effort is to restore affordability and schedule to the Joint 
Strike Fighter. That has been the burden of what we have been 
trying to do over the last few months because of the key role 
it plays in recapitalizing the Tactical Aircraft (TACAIR) fleet 
going forward.
    And it is not just a matter of numbers, I guess is the 
second comment I would make, Mr. Chairman, it is the 
capabilities of the aircraft. The aircraft it is replacing are 
good aircraft also, but the Joint Strike Fighter has 
capabilities that the legacy aircraft don't, and obviously we 
want to have those capabilities as soon as possible.
    With respect to life extension on legacy aircraft, I know 
that the acquisition executive is prepared to discuss that in 
detail.
    Mr. Smith. I will tell you what. Why don't we do this. I 
will follow up with him. We have had some other members join 
us. I want to make sure they get a chance to ask that.
    You know, on those follow-up questions later, I am curious, 
you know, what is the threat that we are proposing to counter, 
the need for 22,000 or 2,200 or whatever is it in fighter 
aircraft and how that fits in with the Quadrennial Defense 
Review (QDR) and threats that we are worried about.
    But I will go to Mr. Marshall now for five minutes and then 
Mr. LoBiondo after him.
    Mr. Marshall. Well, I thank the chairman for his line of 
questioning that I stumbled in on. I do think it is important 
for us to hear, you know, with the recent changes that you have 
made on the ramp and flattening out the F-35, how that also 
changes other things. Obviously, force structure decisions were 
made with a different contemplated availability of the F-35 in 
mind.
    I have got no parochial interest in this at all, into the 
F136 engine. It is almost--it is fascinating to me how this has 
evolved. If we get a new Secretary we are always subject to 
budget constraints, Secretary Carter, you mentioned just a 
minute ago, you know, which displaces other things. You know, 
the dollars involved in this displacing other things we can 
spend our money on.
    But we get a new Secretary, a decision is made, comes as a 
surprise to us, given what we have heard from the Pentagon for 
years concerning the value of the competitive engine. Decision 
is made to cancel it. We fund it that year and request that 
Cost Analysis Improvement Group (CAIG) do a study. CAIG does a 
study, it comes back, we look at the study, we conclude that, 
okay, well, we should continue funding this thing. We just 
respectfully disagree.
    After plunking a bunch more money into it, just sort of 
looking at the CAIG numbers, looked to us like both then-year 
and current-year dollars were either even or positive for the 
alternate engine. And then comes the veto threat over this, 
which just stunned all of us, frankly. It was pretty harsh 
rhetoric over something that we thought was a pretty close 
call, and it is sort of, because we had been funding it 
repeatedly, had gotten to the point where it was in the 
positive column.
    So you all went back, and now CAPE does a study, I assume 
thinking sort of same people thinking about the same kind of 
objectives, et cetera, worried about the same kind of things, 
including the three or four things that you mentioned that make 
you uncomfortable with the projection that currently is 
available, and it looks like it is a wash, present dollars. I 
don't know what the then-year dollars look like. Maybe it is 
positive then-year dollars. We were only given present dollars.
    And so the decision seems to rest on whether or not you buy 
all these attendant benefits and whether we will actually 
realize those attendant benefits. That is one thing.
    Then the second thing is, are we willing to spend the 
money? Are we willing to say, Gosh, we will find money 
someplace else or we will just run a little red ink in order to 
avoid, as you put it, displacing other things that are 
priorities?
    That puts us in a real awkward position. It seems to me 
that we are sort of where we have been for the last four or 
five years. Nothing has really changed. And consistently we 
have made this judgment that the alternate engine should be 
funded.
    Now, I understand from the discussion earlier that the 
slippage in both programs have been about the same. I presume 
that means we are spending more money than we anticipated 
spending in the development of the 135 as well, both of those 
programs.
    And I am just still at a loss to figure out why--I mean, I 
can understand that there is, you know, judgment back and forth 
called for, but I am at a loss to figure out why the Department 
would be threatening a veto over this.
    Is that currently the Department's attitude about it?
    Secretary Carter. It is. And I think there are two things 
that make what is the--the analytical wash, which is--which you 
described and I think Ms. Fox has described--there are two 
other ingredients to the story that I think lie behind the 
Department's judgment that it is not advisable to proceed with 
the second engine.
    The two other ingredients are--both of which you have 
mentioned--one is attendant benefits: Are there attendant, 
noneconomic, nonfinancial----
    Mr. Smith. If I could interrupt.
    Mr. Sullivan, addressing the competition question, will we 
receive a payback that is valuable from competition, you are 
skeptical, considering whether or not that will occur.
    Mr. Sullivan notes historically that paybacks in the range 
of 10 percent or 12 percent, which is what Mr. Sullivan 
identified in his opinion as being necessary in order to break 
even dollars-wise, that that historically has occurred.
    You don't think so here?
    Secretary Carter. That is the other thing. Our judgment is 
that the assumptions that show that payback--historical, 
analytical--are very optimistic. And, therefore, if one accepts 
that, you have to compare very real, very certain upfront costs 
to hypothesized savings.
    And I--we have not been able to substantiate those 
hypothesized savings.
    Mr. Smith. It is almost always the case that in trying to 
spend money on any future program, you have to predict benefits 
of--and whether it is economic payback, or, you know, improved 
security, et cetera. I mean, there are all kinds of projections 
that you make.
    I don't see why these are really that different.
    Secretary Carter. Well, making an upfront investment to 
realize savings for the taxpayer in the long run is a very 
prudent. We do it all the time.
    Investing real upfront money against a, to us, not 
analytically well-grounded expectation of future saving, that 
is where we have trouble making that particular--this 
investment.
    Mr. Smith. So it is the failure by CAIG to properly analyze 
this, to come up with the right balance----
    Secretary Carter. No, I think they have done the best 
analysis that can be done, which is kind of a--it takes 
learning--I don't want to get too technical about it, but it 
takes learning curves, the way the unit price is reduced with 
the strength of a buy----
    Mr. Smith. I am sorry. I am going to have to have you wrap 
this up fairly quickly. We are a little over time, and I want 
to get to the next questioner.
    Secretary Carter. I am sorry.
    Mr. Smith. But go ahead and complete your thoughts.
    Secretary Carter. My only point was I think it is the best 
kind of economics textbook, if I may say it, analysis that can 
be done. But that presumes a competition in the out-years, a 
certain competitive dynamic, that just doesn't look like it is 
realistically based.
    Some of the customers will not, in fact, buy whatever 
engine is produced more cheaply in that particular year. They 
want one engine or the other engine.
    So when one hypothesizes a free and open competition, we 
are concerned that it would actually be a series of directed 
buys.
    Mr. Smith. I am going to have to let Mr. Marshall get the 
last word here and then move on.
    Jim, if you have got a word or two here?
    Mr. Marshall. Well, I just don't see why CAIG and the 
bright folks that no doubt make up the group that did the 
original study wouldn't have been able to think through exactly 
those risks.
    What has changed that all of a sudden somebody concludes, 
oh, we didn't think through--their thoughts concerning the 
value of competition are faulty because, as you have just 
described, that they couldn't have thought that through to 
start out with?
    Mr. Smith. And this will have to be continued, I am sorry, 
at a later point.
    Mr. LoBiondo, and then I will get to Mr. Akin after him.
    Go ahead.
    Mr. LoBiondo. Thank you very much, Mr. Chairman.
    I kind of don't know where to begin to start. I don't know 
how other members feel--there aren't that many here. But I 
can't believe what I am hearing.
    I mean, there have been slippages, there have been cost 
overruns, there have been all kinds of problems, and the--what 
we are being told is just ``spend a little more money, take a 
little more time, don't worry about it, everything is okay.''
    I have been really on this fighter gap issue for some time 
now, and no one can explain how we are going to make this up.
    You all have dug your heels in on this F-35, and I think 
this is going to come back in years to come and haunt us as a 
monumental mistake to look at what we are doing to our legacy 
fighters and the fighter gap issue--the bathtub issue.
    There is no way anyone has been able to explain for years 
how you are going to make up this gap.
    When these F-16s and F-15s are no longer able to fly and 
the F-35 still have problems because someone hasn't figured it 
out, you are going to have Air Guard units that are not going 
to have planes.
    And, as someone pointed out earlier, all we are doing when 
we say what we need in terms of numbers is shrinking them down 
when someone points out that we have got a problem.
    I don't--Mr. Chairman, I don't know how we get our arms 
around this.
    Mr. Taylor, you talked about it earlier.
    We have got serious, serious fiscal problems that are 
facing this country and we are billions and billions of dollars 
down the wrong track, because somebody made a decision that the 
F-35 was where we were going to put all our eggs into that 
basket.
    And I am really angry about this. Hearing after hearing, it 
is the same thing--more time slippage, more money, more 
problems. ``Just have a little more patience, Congress. We know 
more than you. Working with the vendors, working with the 
contractors. Don't worry. We are buying these things. We are 
doing it.''
    I will tell you. I hope somebody wakes up on this. I really 
do.
    I apologize, because I--I had not intended to go this 
route. But I am listening to this, and there is only so much we 
can take.
    Somebody has got to wake up and start giving us some 
answers.
    If you are able to give us some answers on what you are 
doing to make up the bathtub issues and how substantively we 
are going to solve that problem, I would be quiet and be calm.
    But I feel like a second grader, being patted on the head, 
saying, ``Don't worry about. Everything is going to be okay. 
Just go back into the classroom and fold your hands. And 
everything will be fine.''
    I yield back.
    Mr. Taylor. The chair thanks the gentleman from New Jersey.
    The chair now recognizes the gentleman from Missouri, Mr. 
Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    As I mentioned when we started, I had been having a hard 
time trying to get some answers. I guess you are sensing, 
perhaps, some frustration on our committee. And to try to put--
to give an overarching kind of sense of what is going on, is we 
feel like we are being given the mushroom treatment over here.
    We are not included. There is not transparency. There is 
not visibility as to what the decisions are.
    We talked about QDR this morning, and, as I said earlier, 
we live in the political world. We play with budgets, and we 
make decisions about how much the Department of Defense gets in 
their spending.
    And if you are not getting enough money, we need to know 
about it. If we are going to give you this much money, and you 
say, ``Okay, with this much money, here is what we can do to 
give you the least amount of risk,'' then you have got to tell 
us, ``Yes, but we have left these gaps in here that are a 
problem.''
    And it is our job to go back and get more money for DOD, 
but we can't do that if we don't know what is going on.
    And the transparency has been nonexistent. It is like it is 
transparent as a concrete wall.
    Now, here is one that I--I have asked this question about 
2\1/2\ years in a row now. I just keep trying it because I 
think maybe somebody can answer it. It is not on JSF, but it is 
related tightly.
    First of all, what is the status of the DOD cost analysis 
on F-18 multi-year procurement, and will the Department meet 
the May 1st contract award deadline? That should be a yes or 
no.
    Secretary Carter. We are going to meet the May 1st 
deadline, if we possibly can. The only reason I add as we 
possibly can, sir, is that that is not entirely under our 
control. It is a matter of the interaction with the contractor.
    It is an important discussion that we are having. We had 
some indication from the contractor of a willingness to make an 
offer that we would be interested in, and we are trying to wrap 
that up just as soon as we can, because we understand the 
deadline.
    If I may comment on the mushroom issue, and to the 
congressman from New Jersey as well, I kind of felt the same 
way in November, that is, that we were seeing in the JET 
estimate a picture of the Joint Strike Fighter program so 
different from the one that had been portrayed by the joint 
program office and the contractor.
    And that is the reason that the Secretary took the action 
he did.
    So I can very much relate to your anger about it and----
    Mr. Akin. The concern we had, sir, was that it wasn't just 
in one issue. It wasn't just Joint Strike Fighter. It has been 
across the board in a whole series of different areas.
    So it is not like it is that one program. We know that 
there is certain problems with certain programs, understand 
that. But this has been a broader sense. The Quadrennial 
Defense Review is not just specifically that one plane. It is a 
whole series.
    And how do you come to the decision of how many ships, how 
many this, how are you balancing that?
    And that--that process is what I am talking about as being 
opaque. It is not just this one program, which also is that 
way.
    So you are saying you are going to try to meet that 
deadline to the best of your--depending on negotiations with 
the contractor.
    Secretary Carter. Absolutely.
    Mr. Akin. Now, here is--next question: There is a memo we 
got from the Navy that says the shortfall is actually 177, but 
by--they think they can reduce it to 100 by several mitigation 
options. And then it says, ``All options are on the table to 
manage.''
    So I asked a simple question before: Is one of the options 
if we don't have enough F-18s, that is the only thing we are 
flying off of aircraft carriers, is one of the options to buy 
some more of them?
    It seems like you have got three options: One, you take old 
ones, fix them up; two, you just get by with what you have got, 
don't have as many airplanes on an aircraft carrier; or, three, 
you buy some new ones. That seems to me to be common sense.
    Now, I asked that specific question, and I asked it three 
times, and never got an answer.
    Are ``all options are on the table,'' does that mean buying 
more F-18s is an option? Or is it not an option?
    Secretary Carter. Well, we are buying more F-18s.
    Mr. Akin. I mean beyond what is currently on record, the 
program of record. Because the program of record--this 
shortfall is after we buy the ones on record. It is still a 
shortfall.
    Secretary Carter. That is correct. Well, I want to be very 
clear. And then, of course, Mr. Stackley will be addressing 
this also.
    The options that we are looking at now, and that we would 
then fund in fiscal year 2012 and beyond are ones designed to 
prolong the life of the existing fleet of F/A-18s until they 
can be replaced by Joint Strike Fighters.
    Mr. Akin. You say you are talking about rebuilding old 
planes?
    Secretary Carter. It is extending the life, the operational 
life, of the F/A-18s.
    Mr. Akin. But you are not considering buying some new ones 
instead of that?
    Secretary Carter. No, the options that are being considered 
that I think were in the--specifically referenced in the quote 
that you are discussing, are options for extending the service 
life of the F-35s--of the F-18s.
    Ms. Fox will be conducting that analysis in the course of 
the year and I really ought to allow her to answer it.
    Mr. Akin. Okay. Well, I am about out of time, so I guess my 
concern is, we have taken a look at the cost per flight hour 
doing that, and, boy, is that an expensive alternative.
    And I guess the question I have is why wouldn't you 
consider the alternative of buying a new one if it comes out to 
be a whole lot financially more desirable? But I have never had 
anybody say, ``Well, we would consider that.''
    I mean, it is obviously logically something you could 
consider.
    Secretary Carter. Absolutely.
    Mr. Akin. You either fix up the old one, you go without, or 
you buy a new one. But why not consider buying the new one, 
because to fix up the old one is half the cost of the new one, 
and you get whatever it is--6,000 more hours on the sucker. So 
I don't understand that.
    Here is one last question, if you will indulge me just a 
minute, Mr. Chairman: In the previous testimony, the committee 
has been told that the F/A-18 manufacturer submitted a proposal 
offering a 10 percent cost savings for multi-year procurement.
    In fact, that is what Secretary Gates said--he had to have 
10 percent, or he wouldn't be happy. I guess I would take any 
amount of money I could get, if we would get an improvement.
    But, anyway, in your recent testimony to the Senate Armed 
Services Committee (SASC), you indicated that a 10 percent 
saving was simply not enough to meet a threshold of interest. 
But that a savings in the teens would actually be required for 
a multi-year procurement.
    It appears to me that you are either trying to posture 
yourself to negotiate more savings from the manufacturer or you 
are arbitrarily setting requirements on the fly.
    What is the basis for now requiring a savings that exceeds 
10 percent? I would like to believe that this figure wasn't 
arbitrarily chosen, so I would like to see your analysis that 
supports this new figure and would allow you to justify walking 
away from nearly $0.5 billion of savings.
    Do you understand--this is one that was kind of carefully 
written. Do you understand what we are saying?
    Secretary Carter. I do. And I can respond very directly to 
it. The Secretary said that 10 percent was the threshold of 
interest. I think that was the phrase I used. Obviously, we 
would like to get as much savings as we possibly can. That is 
something that is a matter of discussion and negotiation with 
the contractor and also, as we do our own independent 
assessment of what we should pay for the aircraft.
    So we are trying to get the best deal for the taxpayer and 
the warfighter--the best deal. And----
    Mr. Akin. Now, when you are doing that negotiation, why 
wouldn't you, in that negotiation, say, ``Hey, if we throw some 
more planes in, instead of fixing up the old ones, what kind of 
deal will you give us?'' Why wouldn't you throw that part of 
the table too?
    Secretary Carter. Well, at the moment, we are discussing 
with them, very specifically, the planned buy of both E/F 
models and Growlers and trying to leverage the opportunity of--
of placing a larger order, to see if it is possible that we can 
get a multi-year savings that would warrant taking the action 
of a multi-year.
    And obviously I would like to get the best deal that we 
possibly can in that regard.
    Mr. Akin. I understand you are trying to get the best deal, 
but currently you have a program of record you are going to buy 
some planes, the contractor came and said, ``Hey, we can do 10 
percent to help you on this if you do a multi-year.''
    Now, if you are really trying to get the best buy, have the 
shortfall, and you got a tremendously high cost to rebuild some 
planes, why wouldn't you at least consider tossing out, ``How 
about we increase the number of planes we are going to buy, 
what will you give us as a price?''
    I mean, the Secretary has said: I like the 80 percent 
solutions instead of the real pricey, big ticket thing. Why 
don't we use a little of that reasoning to say, if you got a 
plane at, whatever it is, $50 million, versus another one that 
is going to be, what do you think, $120 million, when you get 
done with F-35, and you don't have the F-35 anyway at the time, 
and you do need some of them, now maybe you say, ``Hey, we 
can't afford to fill this gap because we don't have enough 
money.'' Hey, I can understand that as an answer, but I keep 
feeling like you are not being rational about the way you are 
approaching it. That is my sense of frustration.
    Secretary Carter. The analysis certainly compares life 
extension to recapitalization. You are right, that is logical. 
I think that has taken us to looking at different variants of 
life extension. And I don't--that is analysis that is very 
straightforward to do and I think we can share entirely what 
the basis of that is as we go forward. And I think that----
    Mr. Smith [continuing]. And work on that.
    Mr. Akin. Thank you.
    Thank you, Mr. Chairman.
    Mr. Smith. I just have one more question of this panel, and 
I will see if anyone else has anything, move on to the next 
one.
    One thing on the alternate engine that we have not talked 
about is the May 2008 Defense Contract Management Agency 
Fighter Engine Industrial Capability Assessment that basically 
recommended the F136, sort of took Mr. Marshall's and others' 
side of that argument, if you will. We have asked for different 
opinions about different studies and it seems your Department 
has not commented on that one.
    Are you aware of it? And if so, how do you refute it?
    Secretary Carter. I will need to get back to you on this. 
This is a DCMA analysis. I will get back to you on that.
    [The information referred to can be found in the Appendix 
on page 201.]
    Mr. Smith. Okay. We will be sure and provide that for you, 
and would very much like your feedback on that particular 
study.
    Does anyone else have anything for this panel?
    Mr. Marshall.
    Mr. Marshall. Try to be brief.
    Do you think it is necessary that we maintain the 
industrial base in the sense that fighter engine production is 
different from other engine production?
    Secretary Carter. I would like to have--and I think the 
Department wants to have more than one participant in the 
military jet engine business. We have strong contenders now. We 
have ongoing procurements. We have technology base programs, 
R&D programs that are intended to advance the art in military 
jet engine technology. And all those activities support the 
industrial base and we do want an industrial----
    Mr. Marshall. What would be helpful to me and, I think, the 
committee is if you could take the four reasons why you find 
the projection, you know, that there will be a wash to be 
unrealistic now, and do two things. Flesh them out a little bit 
more, they are very conclusory, and be very specific about why 
you will maintain, for example, an industrial base without the 
competitive engine.
    And then if you could go back and specifically determine 
whether or not CAIG, when it originally considered all of this, 
took into account, in trying to make their 50-50 judgment, 
which is the same thing that CAPE does now, took into account 
the very things that you are now suggesting weigh against 
continuing with the alternate engine. That would be very 
helpful.
    Ms. Fox. May I add to that, sir, in the estimate that we 
did in 2007 and the update we did make several optimistic 
assumptions. And Dr. Carter's referring to them is accurate. We 
do delineate them in our report and are clear about them in the 
current. And it does bring us to a----
    Mr. Marshall. If I could, Ms. Fox, were you involved in 
that?
    Ms. Fox. No, sir.
    Mr. Marshall. So you are now saying that they were 
optimistic then.
    Ms. Fox. Right.
    Mr. Marshall. So you are saying that CAIG, at the time that 
it made these projections intentionally made optimistic----
    Ms. Fox. No, sir, we didn't intentionally make optimistic 
assumptions. We tried to make----
    Mr. Smith. If I may--optimistic assumption is a matter of 
opinion at a certain point. I am sure when they put together 
the paper they didn't say, ``And these assumptions are 
optimistic.'' I am sure when they put it together, when they 
did the study and all the studies that Mr. Marshall comes to, 
they did them based on what they thought was going to happen. I 
mean, your assessment now that it is not a good idea is a 
pessimistic assumption, if you want to put it that way. I mean 
those really are just sort of semantic words.
    What would be helpful, and when we are talking about, for 
instance, the discussion about, you know, it is an optimistic 
assumption these cost savings are going to come forward, and we 
put forward and say, ``Well, historically, if you have this 
sort of competition, a 10 to 12 percent savings is 
reasonable.'' That is not just sort of pulling it out of the 
air, that is going back and looking and seeing historically 
what have we learned. I mean, those are the assumptions you 
make. I mean, we--I think it would be obvious to anybody 
working on the Joint Strike Fighter that assumptions are far, 
far from guaranteed. We understand that. But to call them 
optimistic sort of--it really doesn't help us much unless you 
can say, ``Well, gosh, you know, they say that historically you 
have saved 10 to 12 percent.''
    Well, look, we looked at 10 programs, and really only 7 of 
them, you know, 7 of them saved 5 percent, only 3 of them saved 
10 to 12 percent. That is an actual data point, instead of just 
continually saying to us optimistic assumptions. That is, I 
believe, what Mr. Marshall and certainly what I am looking for.
    Ms. Fox. A few comments, if I might.
    First of all, the analysts that did the analysis in 2007 
and updated it now are the ones that gave us all the list of 
assumptions they felt were, let me use the word 
``conservative,'' instead of optimistic. It is no attempt to be 
in any way disingenuous with the analysis. Analysis does have 
to make assumptions.
    Mr. Smith. Absolutely.
    Ms. Fox. And in 2007 we were trying to put the best case 
forward for the alternate engine to inform the Secretary's 
decision, and so we did make conservative assumptions to elicit 
that. And when we updated the analysis we held those 
assumptions constant so we would be comparing apples and 
apples.
    That is all I am trying to say.
    Mr. Smith. Okay.
    Mr. Marshall. So back to 2007. Were you trying to prove a 
case or were you just trying to do a study?
    Ms. Fox. We were trying to do a study, sir.
    Mr. Marshall. So--and the same analysts. So you made your 
best judgment concerning these various issues. Certainly that 
group would have been aware of the issues that are now being 
specifically discussed. You made your best judgment, it was a 
frank, honest, not optimistic, not pessimistic judgment, and 
gave it to us. And based on that we decided to proceed.
    So that is what we are struggling with right now, the 
suggestion that somehow that group did not accurately--well, 
two things. One, either that group somehow was faulty and it 
made overly optimistic assumptions. They would probably say, 
``No, we don't think we did, we thought we were right on the 
mark.'' Or things have changed. So that is what we are really 
struggling with here.
    Mr. Smith. If I could, I think we have beaten the horse 
sufficiently at this point. So I think I would like to move on 
to the next panel, unless there is something new and different 
that members want to raise that we have not raised with this 
panel.
    Okay. Thank you very much.
    And we will obviously from this, and I am sure you have 
been taking notes about some of the questions that we have had 
and get specific answers to them. And we know, I mean, this is 
a very difficult program. It is very expensive, big burden for 
all of us. Communication between your office and Congress would 
be important, and I would concur with Mr. Akin and some others 
who have said that that communication has been not what it 
could be to this point.
    We all have to make tough decisions here. We just want to 
make sure that we are informed as much as possible so that we 
can, you know, hopefully come up with a plan that we can all 
agree on. So hopefully we will do a better job of that in the 
future.
    I thank you for your testimony. We will move on to the 
second panel.
    And I will give you a moment to switch out.
    We have introduced this panel previously, but I will fire 
through it again quickly here just so that we know who we are 
dealing with. And the way I read these off will also be the 
order in which you will be asked to testify.
    We have the Honorable Sean Stackley, Assistant Secretary of 
the Navy for Research, Development and Acquisition; Lieutenant 
General George Trautman, Deputy Commandant for the Marine Corps 
for Aviation; Rear Admiral Deke Philman, Director of the Air 
Warfare Division for the U.S. Navy; Mr. David Van Buren, who is 
the acting Assistant Secretary of the Air Force for 
Acquisition; and Lieutenant General Philip Breedlove, who is 
the Deputy Chief of Staff for Operations, Plans and 
Requirements, U.S. Air Force.
    A lot has been said about this already, as you gentlemen no 
doubt heard. I would ask that--we have your statements. I will 
by unanimous consent submit them all for the record. We will 
have more votes coming up shortly, and I would hope that we 
could get done with this hearing before we do that.
    So it is a very long, complicated way of saying try to be 
as brief as you can.
    And with that, we will go with Mr. Stackley to get us 
started here.

STATEMENTS OF HON. SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE 
NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION; LT. GEN. GEORGE 
 J. TRAUTMAN III, USMC, DEPUTY COMMANDANT OF THE MARINE CORPS 
FOR AVIATION; REAR ADM. DAVID L. PHILMAN, USN, DIRECTOR OF AIR 
WARFARE DIVISION FOR THE U.S. NAVY; DAVID M. VAN BUREN, ACTING 
 ASSISTANT SECRETARY OF THE AIR FORCE FOR ACQUISITION; AND LT. 
   GEN. PHILIP M. BREEDLOVE, USAF, DEPUTY CHIEF OF STAFF FOR 
       OPERATIONS, PLANS AND REQUIREMENTS, U.S. AIR FORCE

               STATEMENT OF HON. SEAN J. STACKLEY

    Secretary Stackley. Yes, sir.
    Chairman Smith, Chairman Taylor, Representatives Bartlett 
and Akin, and distinguished members of the subcommittees, thank 
you for the opportunity to appear before you today to discuss 
Department of the Navy aviation procurement programs.
    The Department of the Navy's fiscal year 2011 budget 
requests funding to procure 206 aircraft--103 fixed-wing, 100 
rotary wing, and 3 UAVs.
    Aviation programs represent the Department's greatest 
warfare investment, and this year program continues recent 
trends, which reflect an increase in our aviation procurement.
    In formulating our investment strategy, we are mindful to 
balance cost, schedule, performance and risk to ensure the 
ability to meet the warfare--war-fighter's needs both today and 
for the future.
    We are leveraging stable procurement in rotary-wing 
programs with continued procurement of the H-60, H-1 and MV-22. 
We are establishing strong technical foundation and putting in 
place the tools to control cost for the P-8A Maritime Patrol 
Aircraft, E-2D Advanced Hawkeye and the 53K Heavy Lift 
Helicopter programs. We are investing in next-generation 
technologies and opportunities that come from unmanned aircraft 
systems.
    And significantly, we are proceeding with E- and F-18 
series production to include, as was discussed with the 
previous panel, pursuing multi-year procurement for the 124 
aircraft in fiscal year 2010 through 2013, while completing 
development and ramping up procurement on the F-35 Joint Strike 
Fighter.
    Our commitment to the JSF program is unequivocal. Now, 
within the framework of the restructured program, it is 
essential that we deliver the cost and schedule performance 
that matches our commitment to the program.
    The Department has long recognized our ability to 
affordably meet our requirements relies upon our ability to 
manage the service life of our aviation fleet. As example, the 
P-3 sustainment. With Congress' help, we are able to ensure 
that that aging aircraft is able to meet our operational 
requirements while we await the arrival of the more capable P-
8A aircraft.
    And equally, similarly, the Department is aggressively 
managing service life of the legacy F/A-18A through D aircraft 
until its replacement by Joint Strike Fighter.
    And to this end, we are initiating further steps to 
mitigate the impacts of delays associated with a restructured 
JSF program.
    Again, we thank the subcommittees for this opportunity to 
discuss Navy and Marine Corps aviation programs and look 
forward to your questions.
    [The joint prepared statement of Mr. Stackley, General 
Trautman, and Admiral Philman can be found in the Appendix on 
page 127.]
    Mr. Smith. Thank you.
    General Trautman.
    General Trautman. I have no opening verbal statement. I 
will just go with Mr. Stackley on this one, sir.
    Thank you.
    Mr. Smith. Thank you.
    Admiral Philman.
    Admiral Philman. Likewise, sir. I stand with Mr. Stackley's 
comments.
    Mr. Smith. Okay. Thanks very much. We will move on to the 
Air Force then and start with Mr. Van Buren.

                STATEMENT OF DAVID M. VAN BUREN

    Mr. Van Buren. Thank you, Mr. Chairman. I have a very short 
statement.
    Good afternoon, Chairmen Smith and Taylor, Ranking Members 
Bartlett and Akin, and distinguished members of the committee. 
Lieutenant General Breedlove and I thank you for the 
opportunity to address the committee regarding the Air Force's 
current and future aviation requirements and capabilities.
    Within acquisition, we are focused on our warfighting 
customers represented by General Breedlove. We are focused on 
what we buy and how we buy it. We are working very hard on the 
large-scale KC-X and F-35 programs, but also equally on the 
Intelligence, Surveillance, and Reconnaissance (ISR) platforms 
for today's fight such as Project Liberty and the MQ-9 Reaper.
    We have much effort as well on modernizing our aging force. 
We have a robust acquisition improvement program with a key 
emphasis on affordability of what we buy and a cycle time 
reduction effort of how long it takes us to deliver to our 
warfighting customer.
    We have made some gains, but we have much work to do. We 
have submitted a combined statement for the record. We look 
forward to answering your questions.
    Thank you, Mr. Chairman.
    [The joint prepared statement of Mr. Van Buren and General 
Breedlove can be found in the Appendix on page 173.]
    Mr. Smith. Thank you.
    General Breedlove.
    General Breedlove. Mr. Chairman, thanks for the opportunity 
to be here today. I join Mr. Van Buren's remarks.
    Mr. Smith. Thank you.
    Starting off, General Breedlove, with you and talking about 
the bomber programs. As you know, we canceled the next 
generation bomber program not long ago, and now we have 
restarted the process of figuring out what our next generation 
long-range strike platform is going to look like.
    Two things about that. One, can you walk us through sort of 
what the plans are, and then explain how it is going to be 
different this time. It is, you know, the juxtaposition between 
canceling one year and then starting up a new process for 
developing it. The next does ask for a little bit of an 
explanation for why that decision was made.
    Could you walk us through that?
    General Breedlove. Sir, I can, and I am happy to do that. 
The Secretary did cancel that program. We began immediately 
looking at what that would mean for our requirements, and the 
Secretary commissioned another group to study what those 
requirements would be, and that group is working vigorously 
across the Department with the help of the United States Air 
Force.
    As far as our contributions to that and what this next 
program would look like, some things do not change much in the 
aggregate, and that is that the overall range, payload and 
stealth capability of the aircraft, some of that will remain 
fairly constant. But the program is being given a hard look. We 
are looking at it, sir, as you and I have talked about before, 
as a family of systems where the one platform for the bomber 
would only be one of the contributions to that family of 
systems.
    It would be supported probably by a penetrating ISR, an 
electronic attack capability, a stand-off cruise missile 
capability, a prompt global strike capability, and those are 
across two different services, sir, so it would be a joint 
family of systems that would bring a capability to our 
Department and to our Nation to take care of whichever target 
set.
    The original bomber was looked at more in the vein of being 
a single penetrating capability. We see that as a capability 
that one might need in certain less-dense target sets. In more-
dense target sets, it may take the entire family of systems in 
order to accomplish the mission that we would need. And that, I 
think, will change the work from the first time when we were 
concentrating solely on one penetrating platform, and now how 
will we get to this capability across both naval and Air Force 
capabilities.
    Mr. Smith. Thank you.
    And then my--the force structure question that I was asking 
the previous panel. As I understand it, that was adjusted, I 
think, this year from 2,200 down to 2,000. A couple of 
questions around that. One, why the downward adjustment? What 
is the threat that we are attempting to counter with that force 
structure? How did it change that allowed us to have 200 fewer 
aircraft?
    And then talk to us a little bit about the F-15s and the F-
16s, what their service life is going to be and what the 
variables are there? How confident are you that they will get 
to their service life? And if you aren't confident, what are 
our plans to sort of make up the difference? And is there a 
period in there, lastly, that we might have a shortfall, given 
where we are at with Joint Strike and with the service life of 
the F-15 and the F-16?
    General Breedlove. Yes, sir, I would be happy to address 
those. To begin with, the 200 delta is during the--after the 
recent release of the QDR and the supporting documents, the 
``Guidance to the Employment of Force,'' and in conversations 
with our OSD counterparts as they were developing those 
documents, the decision was taken that the Department should 
move from a low to medium or moderate threat from that, to a 
moderate threat.
    In other words, the Department agreed to accept a little 
higher threat as we make these computations. And sir, that 
equals 200 aircraft in the modeling.
    Sir, to look at the fighters that you were talking about, 
the F-16s and the F-15s. I would like to just touch first on a 
question that Mr. Bartlett, Congressman Bartlett asked, and 
that is: How do we know what we need? And I want--and I will 
start my discussion of the F-16s and F-15s by saying we have, 
sir, started to look at all of our platforms. The look at the 
A-10 is complete and we know what we have to do on the A-10. We 
know we have to re-skin 233 of them.
    The look at the F-16C, the air-to-air version, the hard 
fatigue-testing program is complete. And we know what we have 
to accomplish in the F-15C. The F-15E is our newest fighter, 
and we have not scheduled that full-scale testing for 
functional life yet. That will be a Program Objective 
Memorandum (POM) 12 initiative, but it is the newest fighter, 
and we are not nearly as far along into the period when we 
would need investigation.
    The F-16, which is the workhorse of our fleet, of course, 
and has some of the oldest fighters associated with it, we are 
partially funded to look at that, and that look will begin next 
year in 2011. And we, as I said, we have partially funded that 
full-scale testing. And we will finish the funding of that 
full-scale testing in 2012. And this will provide us the data 
that we need structurally to look at those aircraft well before 
they are obsolescence lives.
    Mr. Chairman, to address the F-15 and the F-16 question 
that you asked, we have made several efforts to look at what we 
need to do to move those fleets to the right, and in some cases 
to retire portions of those fleets and move other portions of 
the fleet to the right. We are electing to make major 
modifications to 176 of our F-15s. Those modifications range 
from avionics to new Active Electronically Scanned Array (AESA) 
radars, structural numbers in the longerons, which you know we 
had problems with several years back.
    But for the F-15 fleet, 176 of them, we will invest fully 
to take them out to their full economic life. And that will buy 
them forward into the period where we will know much more about 
the JSF and how we make that time-out.
    For the F-16 fleet, we kind of put them in two categories. 
We have the older models, the block 25s and 30s. We have looked 
at about 136 of those that we will elect to retire. The 
investment in those aircraft is too high in order to buy them 
forward. The remaining about 50 percent of that fleet, we are 
looking at a cost of about $500,000 to $800,000 apiece or a 
total cost of about $250 million for the whole fleet, to buy 
that fleet forward 5 years to cover the gaps that we are 
thinking may occur in that fleet. And that is primarily for 
lower skin repairs.
    For the block 40s and the block 50s, our newer F-16s, those 
are the ones that will be looked the hardest at in this program 
which we initiated in this budget and will finish in the next 
budget to do the detailed fatigue testing, and we will know 
more about those aircraft when that is complete.
    But what we already do know is that we need to invest in 
avionics and we are closing out this year the (CCIP), common 
configuration cockpit capability, which brings all of the block 
40s and 50s up to one standard--a standard that will carry them 
well into 2020 or possibly beyond. And we are investing in 
that, and that program is ongoing now. In fact, all of the 
block 50s are done and we should finish the block 40s here in 
the next 2 years.
    Mr. Smith. Okay.
    General Breedlove. So we have addressed each one those 
platforms and looked at how we can move them right to lessen 
the gap or risk.
    Mr. Smith. Understood. That is very thorough, and I 
appreciate your answer.
    I want to make sure I get to Mr. Taylor so I will turn it 
over to Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. I am going to keep 
this hopefully in my lane.
    So Secretary Stackley, I thought I heard you say that you 
had plans to mitigate the effects of delaying the F-35. I was 
wondering if you could lay out some of the options that you 
have in mind and the time lines that would trigger those 
different options.
    Secretary Stackley. Yes, sir. Let me break it down into a 
couple of categories. One is managing the fleet of aircraft; 
and then the other is extending the service life for the legacy 
aircraft.
    In terms of managing the fleet, we look at several things 
that we have ongoing. One is we currently have in place what we 
refer to as TACAIR integration, Navy-Marine Corps, between 
respective services; squadrons both deployed on carriers and 
expeditionary, working the combined service to reduce the 
burden across the two, while separately working the pipeline of 
aircraft back stateside through depot training, et cetera.
    So there is a TACAIR integration piece that is in place 
today that provides a baseline for what our requirements are. 
And then between the Marine Corps, which is referred to as a 
``bed-down plan'' for Marine Corps TACAIR, and on the Navy 
side, the way the Navy introduces E and F squadrons to 
accelerate the introduction of E and F squadrons to replace F-
18 legacy aircraft A- and C-type aircraft so that they can then 
go back into a depot pipeline for service life extension 
purposes.
    So there is a fleet management piece, and then on the 
service life extension piece, we have a series of ongoing 
efforts for the F-18 that take it from what was originally a 
6,000-hour aircraft, we have been able to extend its service 
life out to 8,000 hours through a number of sustainment efforts 
which, depending on what version of aircraft you are, that 
would define what your sustainment effort is.
    This would include things like center barrel replacements 
which you may be familiar with. It is a significant upgrade to 
the early version F-18s that will get it out to the 8,000-hour 
timeframe. But as well, to go from 8,000 hours up to 8,600 
hours, there is a series of inspections that are required where 
we know what the aircraft hot spots are that are of interest. 
And so an inspection regimen has been established to give us 
confidence in taking the aircraft from 8,000 out to 8,600 
hours.
    So in earlier discussion regarding what the TACAIR 
shortfall is for the Department of the Navy, the baseline hours 
that go with the most recent number that was described, 177, is 
that we will be able to get the legacy F-18 aircraft out to 
8,600 hours service life.
    The balance to get from--to drive down below 177 aircraft, 
that is where we need to go. The next step in terms of service 
life extension is to get it out to 10,000 hours. We have not 
started--the aircraft have not got to that point in their age 
and we have not started that SLEP program. That would be a 2012 
issue in terms of starting to procure kits for inducting the 
aircraft into that service life extension program.
    And this--this SLEP program basically buys an additional 4 
to 5 years of service life on the legacy F-18 aircraft. What we 
have got to carefully determine is the extent of the SLEP. That 
effort is going on today to define the piece parts of the SLEP.
    Mr. Smith. Sorry, I need to interrupt for just one quick 
minute.
    Secretary Stackley. Yes.
    Mr. Smith. Votes are on. We have got 15 minutes. We are 
going to use this full 15 minutes as much as possible to get to 
Mr. Taylor, Mr. Bartlett and Mr. Akin. And then it is going to 
be a good while before we can come back, and we will probably 
have to end the hearing at that point.
    So we are going to enter the speed round here, so if we 
could get through all three of those folks, given our time 
constraints, that would be great.
    Go ahead.
    Secretary Stackley. Yes, sir.
    The significant balance of service life extension is the 
foremost SLEP program, POM-12 issue with defining what it would 
contain today, that is everything from the technical details, 
starting to develop what I would call production-type of 
packages, and the cost estimates.
    Then it is a matter of managing the throughput through the 
SLEP, and it is a significant matter of managing the 
throughputs through the SLEP so that we are not impacting the 
operational, the in-service aircraft by pulling too many 
aircraft out, but maintaining an efficient throughput at the 
depot.
    And then there is a timing issue. When we talk about the 
strike fighter shortfall, it is really a period of time from 
start to finish. The numbers that you have quoted are the peak 
in about a 2017 timeframe. So what we would be doing is 
attacking that peak through the SLEP program.
    Mr. Taylor. If the F-35, like so many other programs, takes 
longer than any of us wants, do you have a backup plan to 
continue buying F-18Es and Fs?
    Secretary Stackley. We talked about the 124 aircraft that 
are in the program of record. That multi-year would be in 
fiscal year 2010 through 2013 multi-year. So those production 
lines would remain hot. The front end of the production line 
would remain hot until about the 2013-2014 timeframe.
    Mr. Taylor. Okay. Lastly, to what extent--as you know, Mr. 
Bartlett and I are both adamant in that, if our Nation pays for 
some research, if our Nation pays to develop something, we 
ought to own those plans in case we ever need to buy parts for 
that engine, in case the supplier of that engine or whatever 
burns down, is destroyed by an act of God, act of man.
    To what extent are you insistent on--as you have done on 
the Littoral Combat Ship (LCS) program--that we own the 
technical data package to the engine to the F-35?
    Secretary Stackley. Yes, sir. The same question that you 
had asked Dr. Carter and had an opportunity to discuss a little 
bit with him during a break--there are two pieces to the 
technical data package. I will call it the paper or the 
electrons that come with form, fit, and function, dimensions, 
characteristics of the engine--those are all deliverables 
associated with the engine development.
    The part that I would say is proprietary--and we do owe you 
a formal response for the record--are processes that are unique 
in the case of the 130 engine and practices, techniques, and 
tooling that goes with those practices and processes for 
building that engine.
    So while we would own a technical data package that would 
suggest build-to-print, the processes that go with that----
    Mr. Smith. But you will own the specs of what each part in 
that engine looks like; is that correct
    Secretary Stackley. I will confirm that, but yes, sir.
    Mr. Smith. Okay.
    Secretary Stackley. I will get back to you formally for the 
record.
    [The information referred to can be found in the Appendix 
beginning on page 201.]
    Mr. Smith. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. A quick question. Would this be adequate for 
competitive bidding, or would you need more?
    Secretary Stackley. That is the concern is it is one thing 
to have a build-to-print drawing, but the processing and the 
manufacturing processes and tooling that go with that----
    Mr. Bartlett. But different manufacturers use different 
processes and tooling. My question is: Is what we own adequate 
to get competitive bidding?
    Secretary Stackley. I can't give you a confident answer 
today, sir. I need to come back to you formally for the record.
    [The information referred to can be found in the Appendix 
on page 202.]
    Mr. Bartlett. We would appreciate that very much.
    Do you know how much it will cost to do the service-life 
extension on these legacy aircraft? And have you included that 
in the budget
    Secretary Stackley. Yes, sir.
    Mr. Bartlett. Just a simple--okay. If you have, that is 
fine.
    Secretary Stackley. Oh, no, no, no. Yes, sir, meaning I 
understand your question.
    Mr. Bartlett. Okay.
    Secretary Stackley. Service-life extension has many pieces 
to it. So the first part of service-life extension I am going 
to hit you with is the center-barrel replacement. That is late 
in the budget. There is north of a billion dollars for 421 
aircraft we are already in process with.
    The second part is planning for the more extensive SLEP 
program, which takes the aircraft from 8,600 to 10,000 hours. 
We are in that planning phase. That is a POM-12 issue for the 
Department of the Navy. And in POM-12, we will take a look at 
not just the numbers of the aircraft that we are going to drive 
through the SLEP but the extent of the SLEP for the different 
versions of the aircraft.
    That gets you the airframe, as well, you want capability. 
So we also need to take a look at any upgrades that would be 
associated with an additional 5 years of service life for the 
F-18s.
    Mr. Bartlett. Thank you. What kind of confidence do you 
have that you will be able to achieve adequate service-life 
extension? Or is this the only option left to you now that the 
22 has been cancelled and the 35 is late?
    Secretary Stackley. Sir, I am going to tell you that we 
have significant confidence. Now, there is--I want to say--a 
business case that emerges as you go deeper and deeper into a 
SLEP program. In other words, as the aircraft get older, the 
sustainment cost increases. And when we look at the fleet of 
aircraft that are under consideration for SLEP, to attempt to 
do them all would not be a good--that is not an alternative 
that we would look at.
    So we have taken the A through D aircraft, and we have 
shrunk the potential aircraft down to the 150 to 280 range that 
we would drive through a SLEP. And that is the range that we 
will be looking at in POM-12.
    Mr. Bartlett. One more quick question to which I just need 
a yes or a no answer. Looking at the deep strike heavy bomber, 
I note that the Chinese are able to take out a satellite. I 
note that we are able to take out a missile with a missile. 
This new airplane will fly lower than the satellite and slower 
than the missile.
    It may be stealthy, sir, but it is still has a cross-
sectional area. I am not sure that, in this new world that we 
are entering, that the juice is worth the squeezing in 
producing a new deep strike heavy bomber. I think that things 
may have changed.
    Can you include us in your decision process as to how we 
decide what we are going to do in that area?
    That is the only question I have. If the answer is yes, I 
am pleased. Thank you very much.
    General Trautman. Yes, I think so. And that goes back to 
General Breedlove's discussion of the family assistance.
    Mr. Smith. Mr. Akin.
    Mr. Akin. I guess we have kind of maybe beat this dead 
horse and still haven't gotten, really, an answer. I had a 
chance to see those F-18s being taken apart with the cracks in 
the wings and cracks in other parts. And it looks like a pretty 
tedious process, and the numbers saying it is a pretty 
expensive process. And it just seemed to me like common sense 
that you have got to compare one thing with the other and 
trying to pay a tremendous amount of money to get, you know, 
less than 10 percent more hours on the airframe when you can 
get a whole new airframe.
    And I guess my question is: Are you willing to do the cost 
analysis at least to compare those two alternatives? Right now, 
everything I have heard you say is, well, we are going to take 
a good look at taking the old ones and fixing them up. And 
compared to what? Well, compare it to--we are not going to say.
    You know, are we going to compare it to something? Is it a 
comparison to just not do it at all? Or is it a comparison to 
buying a new one? I have never heard anybody say that yet.
    Secretary Stackley. Yes, sir. Let me first describe--the 
SLEP program, under all circumstances, we have got to get the 
SLEP program up, running, and producing. We cannot--when you 
take a look at a shortfall number of 177 aircraft in a 2017 
timeframe, you cannot buy new out of that shortfall.
    In the economics of SLEP versus buying new, we look at--and 
we are doing the business-case analysis. We look at what it 
would cost to SLEP. And then there is a range of answers there 
depending on the material condition of the aircraft. So we have 
a bottom number, and we have an upper number. And we believe 
the answer is in between and it will vary by aircraft.
    And when you take that number and you compare it to what it 
would cost to buy new, there is a factor there.
    Mr. Akin. So you will consider what it costs to buy new 
then when you do that analysis?
    Secretary Stackley. I would tell you that our analysis--we 
have side-by-side with what a new F-18--the unit recurring fly-
away cost is, and we can compare that versus what it costs to 
SLEP. The other factor that comes into play is what are we 
trying to resolve in terms of the shortfall. And it is a 
shortfall that extends from, you know, the peak of 2017 and it 
goes down towards zero in the 2023 timeframe.
    So the SLEP program overlays that well. When we buy new, we 
are getting more hours, and we are getting those additional 
service hours in a period of time beyond when we have this 
shortfall. That is not a bad thing, but those extra dollars we 
pay for those extra hours are coming away from, potentially, 
for example, a JSF program which gives us the capability in 
that timeframe that we believe--the added capability that we 
believe we need.
    Mr. Akin. Of course, the SLEP is whatever it is--77 
aircraft. The other hundred, you have still got the shortfall. 
So I mean, you could make a decision--I just haven't heard 
anybody say--I mean, if you are going to cost compare, you have 
got to compare something to something. And it seems to me, to 
compare--especially if you are negotiating a multi-year, if I 
were a camel trader, I would say, well, okay; you give me this 
percent, what happens if we throw a couple more aircraft in, 
you know, for the negotiation.
    Just toss that out for your consideration.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much.
    We are out of time regrettably. I know members have more 
questions. There are some questions that we have prepared that 
we will submit to you and, for the record, we would like to 
reflect that. We appreciate any answers as quickly as you can 
get them to us.
    And, obviously, we have a deep interest in this subject 
matter, and we will continue to work with all of you on 
resolving the issues that were raised.
    Thank you. I appreciate your testimony and the questions 
from the members. And we are adjourned.
    [Whereupon, at 4:54 p.m., the subcommittees were 
adjourned.]



=======================================================================




                            A P P E N D I X

                             March 24, 2010

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 24, 2010

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 24, 2010

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 24, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. SMITH

    Secretary Carter. The DCMA Fighter Engine Industrial Capability 
Assessment (ICA) focused on the Industrial Base (IB) and specifically 
the long-term outlook for fighter engine development. DCMA strategic 
conclusions and recommendations from the ICA focused on the inherent 
risks and/or benefits to the IB of various fighter engine procurement 
scenarios. This included the impact to maintaining a competitive 
environment. The overall DoD decision to not continue funding of the 
F136 engine is based on a multitude of other factors that were not 
within the scope of the assessment requirements. The factors, which 
included budget/mission tradeoffs, acquisition risks, performance, 
supportability and overall life cycle cost were analyzed by the 
Government Accountability Office and the Cost Analysis Improvement 
Group, now Cost Analysis and Program Evaluation. Positive outlook for 
engine manufactures in 2008 was largely attributable to commercial and 
services business; however, this workload will only partially sustain 
specialized skills, processes, facilities and technologies required to 
design and develop next generation fighter engines. At the completion 
of F135 and F136 SDD programs, industry will be without a major fighter 
engine development program for the first time in over 35 years. This is 
regardless of production strategies. Strategic recommendation included 
defining and funding requirements for next generation engines. The 
benefits included retaining critical engineering skills and attracting 
new generation of engineers to refill the pipeline.

    Background

    The DCMA Fighter Engine ICA performed in 2008 focused on a limited 
data set and assumptions including existing employment, unique skill 
sets, competition and market forecast. The ICA requirements from the 
Secretary of the Air Force for Acquisition included assessing Fighter 
Engine capabilities at Pratt and Whitney (P&W), General Electric (GE) 
and Rolls Royce (RR), analysis of production scenarios at each 
contractor, market and economic assessment of the commercial and 
fighter engine industrial base and impacts of Research Development Test 
and Evaluation budgets. The production scenarios included F136 engine 
cancelled, F136 engine cancelled and increased quantities of F-22 
engines and F136 reinstated with a JSF engine workload split. Risk was 
assessed based on the three production scenarios and design 
engineering, commercial engine production and fighter engine production 
in 2008, 2012 and 2017. For decades, GE and P&W have had at least one 
new or derivative fighter engine under development. The ICA concluded 
that without the F136, GE's unique Fighter Engine design capabilities 
would erode. This would impact the ability of GE to compete on future 
fighter/combat engine contacts. From a tactical level, the study 
recommended that F136 production is reinstated under FY 2006 schedule. 
The ICA revealed that GE and RR were working on Adaptive Versatile 
Engine Technology (ADVENT), developing and demonstrating technologies 
for next generation engines. ADVENT and Highly Efficient Embedded 
Turbine Engine (HEETE) have been among the largest Science and 
Technology (S&T) efforts in the Air Force since 2007. The ICA concluded 
that ADVENT, HEETE, S&T, Tech Mat and Component Improvement Programs 
are not sufficient to sustain the engineering base for fighter engines 
long term. The ICA shows relatively little difference in out-year risk 
(2017), regardless of F135/136 engine sales, and revealed if new R&D 
efforts are not defined and launched at the Program level, design 
skills would be at risk at both GE and P&W. [See page 31.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. TAYLOR
    Secretary Carter. [The Under Secretary of Defense for Acquisition, 
Technology and Logistics met with Representative Taylor on March 15, 
2010, to discuss his concerns.] [See pages 21 and 22.]
    Secretary Stackley. Under the SDD contract we procured data rights 
to the majority of the technical data created in developing the engine. 
This includes rights to drawings and specifications. There is still a 
significant portion of the technical data for which we have limited 
rights. Although limited, these rights are suitable for executing a 
sustainment strategy which includes standing up organic support for the 
F135 engine and components at government depots. Where warranted by 
business case analysis and consistent with the provisions of existing 
Memoranda of Understanding, the F-35 program will assess the merits of 
acquiring the technical data that would be required to compete 
sustainment of parts, components, or subsystems. [See page 40.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. BARTLETT
    Secretary Stackley. In those cases where the government paid for 
the development of all the intellectual property contained in the 
drawing/specifications for an engine part, the government retains 
unlimited rights and could obtain competitive bidding. In those cases 
where the government did not pay for the development of all the 
intellectual property, which is a significant portion of the engine, we 
acquired only those rights needed to sustain the parts throughout their 
life cycles. The program office will continue to assess the value to 
the government of paying the substantial up-front costs to procure a 
competitive data package for engine parts in the event that the 
sustainment strategy needs to be updated based on fleet experience or a 
change in business conditions.
    In those cases where the government paid for the development of all 
the intellectual property contained in the drawings, specifications, 
and manufacturing processes for an engine part, the government retains 
unlimited rights. In those cases where the government did not pay for 
the development of all the intellectual property, which is a 
significant portion of the engine, we acquired only those rights needed 
to sustain the parts throughout their life cycles. The program office 
will continue to assess the value to the government of paying the 
substantial up-front costs to procure a competitive data package for 
engine parts in the event that the sustainment strategy needs to be 
updated based on fleet experience or a change in business conditions.
    Regarding tooling, the government paid for the design and 
procurement of most of the tools uniquely needed for manufacturing the 
F135 and therefore owns the special purpose tooling and rights thereto. 
General purpose tooling used on multiple product lines is owned by the 
manufacturer. [See page 41.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 24, 2010

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. In the letter of invitation for this hearing, the 
committee asked if there had been any fighter engine industrial base 
studies that had been completed by the Department or on behalf of the 
Department in the past five years of one-engine and two-engine F-35 
programs.
    Your staff-provided response indicated that there have been no 
studies beyond the Department's 2007 study prepared in response to a 
congressional requirement.
    Your staff was apparently not aware of a May 2008 Defense Contract 
Management Agency ``Fighter Engine Industrial Capability Assessment'' 
that recommended that F136 alternate engine production be reinstated 
under the fiscal year 2006 schedule to provide for production 
deliveries in fiscal year 2010. As you are aware, fiscal year 2006 was 
the last year that the Department of Defense budgeted for the alternate 
engine. In your testimony you indicated you would like to have more 
than one military engine company in the U.S. The DCMA assessment 
indicates that the lack of a major engine development program threatens 
the survivability of the military engine industrial base after the 
development of the F135, regardless of whether the F136 is funded: At 
completion of the F-35 SDD program, the F-35 engine manufacturers 
``will be without a major fighter engine development program for the 
first time in over 35 years.'' What is the policy of the Department 
with regard to maintaining a competitive high performance-low 
observable engine industrial base and what FYDP plan and funding does 
the Department have to support the Department's policy? What is your 
view of the military engine industrial base's ability to develop and 
produce affordable low-observable high performance engines in a 
competitive environment absent the F136 program?
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. As you know, section 213 of the National Defense 
Authorization Act for FY 2008 directed the Department to ensure the 
``obligation and expenditure in each fiscal year of sufficient annual 
amounts for the continued development and procurement of two options 
for the propulsion system for the Joint Strike Fighter.''
    How do you and the OSD General Counsel view the Department's 
conformance with section 213 by not including funds in the budget 
request for a competitive JSF engine?
    What is the status of fiscal years 2009 and 2010 procurement and 
RDT&E appropriated funds specifically directed to the alternate engine? 
Has the Department withheld funding? Why and what are the plans for use 
of the withheld money?
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. What has been the impact of funding withholds and 
uncertain future funding on the second engine contractor?
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. The committee remains concerned that the Department is 
not complying with the intent of Congress and existing statute in the 
execution of the F136 program. The Department's continued failure to 
execute authorized and appropriated funding for the F136 makes 
management of the program unnecessarily difficult and ultimately more 
expensive for the Department.
    Congress authorized and appropriated $35 million in each of fiscal 
years 2009 and 2010 for F135 advance procurement, as specified by the 
F-35 Joint Program Office as the amount needed and executable for the 
F135 program. The Department later determined that procurement funds in 
fiscal years were premature to need. Given the clear intent of Congress 
to proceed with the alternate engine, why has the Department not 
reprogrammed the $70 million for alternate engine development?
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. As you know, the Department has a LRIP standard of ten 
percent of total production, yet determined in 2001, long before the 
major delays in the program, that exceeding the ten percent standard 
was warranted. The procurement profile currently planned would result 
in Congress being required to authorize a cumulative 550 F-35s in 2015, 
one year before the milestone C decision, for the highest year of 
annual production in 2016 of any year in the JSF program. What should 
determine LRIP annual and cumulative production rates prior to 
milestone C, the production facility's ability to produce airplanes or 
the progress of flight testing?
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Affordable life-cycle operating and support costs are a 
key tenet of the JSF program goals. It is critically important that the 
U.S. and international partners be able to afford future O&S bills. The 
estimate in the new SAR shows O&S costs per flying hour are materially 
higher than current costs for the F-16, one of the aircraft it is to 
replace.
    Wasn't the JSF supposed to cost less per flying hour than the 
aircraft it is replacing? What are the implications and impacts on 
future budgets if costs are materially higher than those for legacy 
systems?
    What factors are driving increased life cycle cost estimates?
    We understand that the Naval Air Systems Command is projecting even 
higher O&S costs than the program. How much more? What are the key 
reasons why the NAVAIR estimate is higher? Do you agree or disagree 
with NAVAIR?
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Regarding the history of the F135 and F136 test delays 
due to engine anomalies during testing, for each significant finding 
during SDD testing, please: 1) describe the engine anomaly, 2) describe 
length of delay for redesign/repair, 3) provide the cost impact to the 
program as a result of this delay, and 4) provide the weight growth 
impact as a result of the necessary modifications to fix the anomaly.
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. In your statement you note that Secretary Gates directed 
the procurement of an additional carrier version to be used for flight 
testing, and that three early production jets planned for operational 
test would be loaned to developmental test. Of the three early 
production jets to be loaned to development test, what is the model of 
the aircraft (ie. A, B, or C) that the Joint Estimating Team II 
recommended, and what model is the Joint Program Office executing for 
this purpose? If they are different, why are they different?
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Is ``business case'' defined anywhere in Department 
regulations or directives? Is there a requirement as to what the 
content is for a business case analysis?
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. With your statement you attached an enclosure 1 
classified in its entirety as ``For Official Use Only'' and 
``Competition Sensitive-Company Proprietary.'' Please provide an 
updated copy of this document that identifies which paragraphs are 
``For Official Use Only,'' ``Competition Sensitive-Company 
Proprietary,'' or unclassified.
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Ms. Fox, your recent analysis of the alternate engine 
program shows that, on a net present value basis, life-cycle costs to 
go are the same for either a one-engine or two-engine program. DOD's 
2007 alternate engine study considered the non-financial factors of a 
two-engine program, including a hedge against risks in development and 
production, enhanced contractor responsiveness, technological 
innovation, and a more robust industrial base. In your latest analysis, 
what value did you ascribe to these non-financial factors? Why wouldn't 
a two-engine F-35 program be the best value since the costs to go for 
either option are the same?
    Ms. Fox. OSD-CAPE did not assign a value to possible long-term 
aspirational nonfinancial factors in its 2010 update analysis. Rather, 
OSD-CAPE's analysis considered the tangible near-term factors that 
yield a savings in the short term.
    Mr. Smith. Ms. Fox, in your statement you note that CAPE concluded 
that the competitive procurement of F136 engines would now begin in 
2017, three years later than the 2014 date assumed in prior analyses. 
Last year, the Joint Program Office noted a requirement for long-lead 
procurement funding so that engines could be procured in 2011 with a 
competition in 2014. What has changed about the F136 program that you 
now believe there is a three year delay? What information otherwise do 
you base your recommendation on to delay competitive procurement to 
2017? Why is there necessarily a correlation between F-35 aircraft 
program delays and the ability of the F-35 aircraft program to test 
F136 engines? How many months delay in the F136 program do you 
attribute primarily to the delay in the F-35 aircraft program?
    Ms. Fox. With the restructured program, the engine competition will 
slide to 2017 because additional time is necessary for: (1) completing 
the development program, i.e., SDD, for the alternate engine; (2) 
funding an engine component improvement program to maintain engine 
currency; (3) performing directed buys of engines from the primary and 
second sources to prepare for a competition, and (4) procuring tooling, 
support equipment, and spares.
    Mr. Smith. Ms. Fox, the Department concurred with GAO's 
recommendation in their recent report that DOD complete a full 
independent and comprehensive cost estimate for the JSF program. We 
understand that your CAPE team is continuing its good work. What is the 
status of the CAPE's work and the schedule for completing it? Will the 
new estimate be in the December 2009 Selected Acquisition Report? 
Military construction costs have been seriously under-estimated in past 
F-35 SARs. Past SARs projected MILCON from $0.5-$2 billion. Are you 
making a new projection of MILCON? Will it be in the December 2009 SAR? 
Do you have an idea on the order of magnitude of a more complete 
estimate? What about JSF-related expenses that are not funded through 
the program? Is your CAPE team looking at potential requirements such 
as strengthening and heat-shielding carrier decks? What about costs for 
reconfiguring carrier storage and servicing space and special 
facilities, support equipment, command and control systems for deployed 
JSF units? Are any of these already programmed for funding in the FYDP? 
What and how much? Are there initial projections for these kinds of 
costs and when they will be needed in the budget?
    Ms. Fox. OSD-CAPE will assess MILCON and other JSF-related costs in 
the program, in accordance with the Nunn-McCurdy certification review, 
which is scheduled to be complete on 1 Jun 2010. The Office of the 
Under Secretary of Defense for Acquisition, Technology & Logistics 
(OUSD(AT&L)) is better able to answer questions related to the 2009 
SAR, which was released on 6 Apr 2010. OSD-CAPE will conduct an 
independent cost analysis of the JSF program in accordance with the 
Nunn-McCurdy certification review. This analysis will conclude on or 
before 1 Jun 2010, with a new program baseline (including an estimate 
of MILCON costs) to be provided sometime in the summer. The SAR, 
published on 6 Apr 2010 does not reflect this work. The OSD-CAPE Nunn-
McCurdy analysis will not include non-program-related costs, e.g., heat 
shielding. These are potential Service-specific requirements that, if 
required, will be funded by the Services.
    Mr. Smith. Ms. Fox, on the F135 and F136 engine, assuming fully 
funding the respective contractors at a dollar level that can be 
productively executed, what would be the required funding, in then-year 
dollars, by appropriation, for fiscal year 2011 and in total for the 
remainder of the future years defense program, (A) To complete 
development (B) To prepare for competitive procurement (C) And in what 
year would competition be possible?
    Ms. Fox. OSD-CAPE estimates that $2.9 billion is required through 
FY 16 to prepare the alternate engine for competition starting in FY 
17.
    Mr. Smith. Ms. Fox, what was the CAIG's estimated total cost ($TY), 
by fiscal year, for SDD, procurement, and operation and maintenance 
funding required for both the F135 and F136 engines when the 2007 study 
was accomplished (actual through 2006 and projected thereafter) and for 
the February 2010 provided update the CAPE's estimated total cost ($TY) 
for SDD, procurement, and operation and maintenance funding, by fiscal 
year, as currently projected (actual through 2009, projected 
thereafter) for both the F135 and F136 engines? Also, how much of the 
recently determined additional $2.9 billion (to take the F136 program 
to competition in 2017) was included in the 2007 study? If the amounts 
are higher in the 2010 analysis, please explain why.
    Ms. Fox. Because question #40 contains two questions, the answers 
are provided in two parts.
    Proposed Response: The Joint Strike Fighter Alternative Engine 
Acquisition and Independent Cost Analyses report prepared by the Office 
of the Secretary of Defense, Cost Analysis Improvement Group in 2007 
was prepared in accordance with Section 211 of the FY 2007 National 
Defense Authorization Act (P.L. 109-364). The statute required 
preparation of a life-cycle cost estimate. The results of the life-
cycle cost computations are captured in the following two tables 
extracted directly from the original report. The first table, Table 4 
in the original report, shows the costs for an F135 only program except 
for the sunk costs which consists of both F135 and F136 funding through 
FY 2007.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The second table, Table 5 in the original report, shows the 
estimated life-cycle cost savings associated with competition.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    This life-cycle cost analysis prepared in the FY 2007 report, 
as specified in law, required the estimation and integration of the 
total development, procurement, and operating and support costs over 
the anticipated life-cycle of the JSF aircraft program. As a result, no 
breakouts of costs by fiscal year or by appropriation were prepared 
during the preparation of the FY 2007 report.
    A more recent ``quick update'' to the 2007 analysis, prepared in 
February 2010, updated two specific areas of SDD costs estimated in the 
FY 2007 report. First, ``sunk costs'' were updated to include the 
additional appropriations, through FY 2010, that had been directed by 
Congress for development of the F136 alternative engine. Second, the 
SDD costs to go were updated based on more recent actual cost 
information from both engine development programs. These changes were 
incorporated as changes to the original life cycle cost estimates from 
the 2007 report. Accordingly, breakouts by fiscal year or by 
appropriation are not available from this analysis.
    A revised version of the two tables (i.e., Tables 4 and 5 in the 
2007 report) is shown below. As expected, the 2010 ``quick update'' 
indicates that a competitive engine acquisition strategy becomes 
slightly more attractive in an economic sense than the 2007 analysis.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    2nd question:
    Also, how much of the recently determined additional $2.9 billion 
(to take the F136 program to competition in 2017) was included in the 
2007 study? If the amounts are higher in the 2010 analysis, please 
explain why.
    Proposed Response: It is important to note that $2.9B estimate of 
FY 2011-16 funding requirements is distinct from the 2007 acquisition 
study and the 2010 quick update analysis described above. Each of these 
analyses were built on different sets of assumptions and accomplished 
for different purposes. The 2010 $2.9B budget estimate was computed to 
provide an estimate of the annual funding requirements of an alternate 
engine program in FY 2011-16. It is based on what we believe to be the 
most current program assumptions with respect to aircraft quantities 
and when an engine competition can reasonably be expected to occur. 
Conversely, the 2007 study was intended as a more broadly-based, life-
cycle, comparative analysis between two alternative acquisition 
strategies for the JSF propulsion system. The 2007 study was based on 
program assumptions current at the time but which have since changed. 
The purpose of the 2007 study was not to provide the foundation for 
short-term budget estimates, but rather to give insight into the 
relative costs and benefits of a single vs competitive source 
acquisition strategy over a program life-cycle, in accordance with the 
statutory requirements specified in the 2007 NDAA. It is therefore not 
possible to do an ``apples to apples'' comparison between the 2007 
acquisition study and the 2010 $2.9B budget estimate.
    There is, however, some overlap in methodologies between the two 
analyses. The 2010 $2.9B budget analysis includes the cost to complete 
development of the F136 engine; the cost to initiate and continue a 
component improvement program for the alternate engine; the cost to 
procure alternate engines; and costs to provide for the tooling, spares 
and initial sustainment of the alternate engine. It also includes the 
effects of reduced production efficiencies since the buy would be split 
over two contractors vice one and neither contractor is able to proceed 
down a learning curve as quickly with smaller quantities. Many of these 
same costs were explicitly or implicitly accounted for in the 2007 
acquisition strategy analysis.
    Mr. Smith. Dr. Gilmore, in your December 2009 report on the F-35 
program, you found that continued production concurrent with the slow 
increase in flight test over the next two years will commit the DOD and 
Services to testing, training, and deployment plans with substantial 
risk. Do you think that this risk has been eliminated with the removal 
of 122 F-35s in the future years defense program? Would reducing the 
budget request of 43 aircraft for fiscal year 2011 reduce risks 
further?
    Dr. Gilmore. The removal of aircraft in LRIP lots 5 through 9 has 
reduced but not eliminated the risk to the Services of procuring 
systems that may need significant modifications resulting from 
discoveries made during flight test, which, at this point, is 
approximately 3 percent complete. LRIP 5, the lot funded in FY11, 
includes 4 IOT&E aircraft, 26 initial training aircraft, and 13 
aircraft for other purposes. The numbers and delivery schedule for the 
IOT&E and initial training aircraft should not be changed; otherwise, 
the risks of concurrent development, testing and production would 
increase.
    Mr. Smith. Dr. Gilmore, the F-35 test program relies to an 
unprecedented degree on modeling, simulation, and similar tools to 
achieve test requirements normally achieved through flight testing. Are 
you confident in this approach to flight testing strategy? How many of 
these models are there and have they been accredited or validated? Is 
there a need for a backup strategy or is it just a matter of adding 
flight tests? If so, how many additional flight tests would be required 
to substitute for the current flight testing surrogates in the program?
    Dr. Gilmore. There are 28 models and simulations in the JSF 
modeling and simulation accreditation plans, several of which will be 
accredited multiple times throughout System Design and Demonstration as 
systems are upgraded (40 total accreditations). The program office has 
accomplished three accreditations so far, ten more accreditations are 
planned before the end of 2010. It is my understanding that the 
contractor and program office plan to use flight test data during 
validation of the models without dedicating specific flight test 
missions for this purpose. Although possible, it remains to be seen to 
what degree this will occur and if the models can achieve 
accreditation. The progress made during the next 18 months in actually 
executing current plans in both the flight testing and model 
accreditation will be critical to improving my confidence in the 
development team's ability to accredit and use all the models as 
planned. The overall flight test program was reduced approximately 
4,000 flight test hours when program management changed the test 
strategy to use the labs/models as verification venues. Since then, the 
flight test plan has increased by approximately 1,300 total flight test 
hours. The difference potentially establishes an upper bound for the 
estimate of additional flight testing needed should the labs/models not 
be accredited. Given the importance of the labs/models, the program 
needs to at least explicitly plan for the flight testing needed to 
validate and accredit them as test venues.
    Mr. Smith. Dr. Gilmore, in comparison with prior defense systems, 
the JSF development testing will depend much more heavily on ground 
test labs and computer simulations. Are you comfortable with both the 
in-place resources to do this and with this approach in general? How 
will DOD validate and verify results from test venues other than flight 
tests?
    Dr. Gilmore. The process relies heavily on being able to gather 
adequate numbers of subject matter experts from within the program 
office and the services to evaluate the validation and accreditation 
data generated by the contractor team. I am concerned about the tempo 
of validation and accreditation activity that a small government team 
must manage, and the schedule pressure that is likely to occur. I am 
also concerned that the program schedule is predicated heavily on the 
expectation that modeling and simulation validation efforts will 
usually be successful on the first attempt. That is, I'm concerned that 
time has not been incorporated within the schedule to accommodate the 
need to fix flaws with models and simulations (M&S) that are discovered 
during the validation process. Historically, the discovery of M&S flaws 
during validation is fairly typical. In the DOT&E FY 2009 annual 
report, I recommended that verification, validation and accreditation 
of models be subject to disciplined government oversight and undergo an 
independent review. Independent review is necessary to assure that 
verification, validation, and accreditation is rigorous.
    Mr. Smith. Dr. Gilmore, you note that a recent operational 
assessment determined that the program is on track to achieve 
operational effectiveness requirements, but not operational suitability 
requirements. Do you believe the program is now taking the right 
actions to address meeting operational suitability requirements?
    Dr. Gilmore. The Operational Assessment highlighted the need for 
significant work to improve the suitability of all JSF variants before 
entering IOT&E. Some design changes are being proposed and reviewed by 
the development team, such as altering the Autonomic Logistics 
Information System to enable it to support unit deployments from both 
main and forward operation locations. My understanding is that aircraft 
design changes are also being considered to address the surface 
compatibility and external environment effects (such as thermal damage 
to operating surfaces and downwash impact to equipment and personnel) 
included in the basing issues identified in the operational assessment. 
Sortie generation rate and logistics footprint are two contract 
specifications that will not be validated by flight test data before 
operational test. Performance affecting these requirements, such as 
reliability and maintainability, need to be closely monitored during 
developmental and operational flight test to confirm the predicted 
performance is being achieved. Internal cooling of JSF aircraft 
subsystems is also an area that requires continued monitoring of 
performance as flight test progresses. A change to the design of the 
fuel boost pump is planned for LRIP aircraft to address this problem. 
Data on the actual performance of the JSF thermal management systems in 
mission systems flight test aircraft and production aircraft are needed 
to confirm this modification fully addresses the problem. The 
suitability of the weapons system in all of its required operational 
environments needs to be carefully and continuously tracked by the 
Department as flight test progresses.
    Mr. Smith. Dr. Gilmore, what is your general assessment of the 
state of development testing and system maturity? Based on current test 
plans and schedules, do you expect DT&E to be sufficiently advanced and 
robust to allow scheduled initiation of initial operational testing?
    Dr. Gilmore. The re-structure of the JSF program provides the 
opportunity to conduct the robust developmental testing that is a pre-
requisite of successful IOT&E. With only 3 percent of developmental 
flight testing complete, the system is not yet mature. The first combat 
capability is not available until Block 2 is delivered in 2012. We are 
in the process of reviewing the details of the new integrated test 
plan. The need for a number of resource commitments has been 
identified. Initiating IOT&E of Block 3 capability in accordance with 
the most recent plan depends on providing those resources, delivering 
the test aircraft to the test centers, and timely delivery of effective 
mission systems software. The re-structured program provides the 
opportunity for these needs to be met.
    Mr. Smith. Dr. Gilmore, how many F-35 aircraft are needed to 
complete Initial Operational Test and Evaluation (IOT&E) in 2016, and 
how does that number compare with the Department's low-rate initial 
production (LRIP) plan? Should there be some correlation between the 
number of aircraft required to complete IOT&E and the LRIP plan?
    Dr. Gilmore. Eighteen aircraft, six from each variant, are needed 
to conduct the Block 3 IOT&E, which are procured in LRIP lots 3, 4, and 
5. An additional 53 US aircraft are planned for initial training at the 
Eglin training center. Aircraft in addition to these 53 will be needed 
to support achievement of the Marine Corps, Navy, and Air Force initial 
operational capabilities. LRIP quantities do not need to be limited to 
IOT&E and training assets. In addition to those purposes, Title 10 also 
identifies establishing an initial production base and permitting an 
orderly increase in the production rate for the system sufficient to 
lead to full rate production after successful completion of operational 
testing as justification for LRIP.
    Mr. Smith. Dr. Gilmore, your report states that ``the mission 
capability of the LRIP systems is unclear.'' Could you please amplify 
this statement and how it impacts your testing plans as well as the 
Services' initial operational capability plans.
    Dr. Gilmore. The capability that will actually be available when 
each LRIP aircraft leaves the production line depends on the progress 
of flight testing. The LRIP lot contracts predict based on current 
plans what that capability will be. However, flight testing yields the 
data used to generate the flight clearances and certifications needed 
by the operational testers, trainers, and fleet pilots to know what 
flight envelope and mission systems capabilities they will be able to 
use. Successful deliveries of software providing maintenance capability 
will also determine the combat capability that will be available. Thus, 
the development and implementation of a realistic, executable test and 
schedule--which the re-structure enables--is key to providing a clear 
understanding of the capability provided by LRIP aircraft.
    Mr. Smith. Dr. Gilmore, your report identifies eight important 
recommendations dating back to FY 2007 that have not yet been 
addressed. Are you expecting action on those recommendations? When? 
Your 2009 report makes additional recommendations. What 1 or 2 are most 
crucial in your mind and when are these expected to be implemented? 
Overall, how responsive have the JPO and contractors been to your 
team's efforts?
    Dr. Gilmore. The DOT&E FY09 Annual Report stated that satisfactory 
progress had been made on 11 of 19 recommendations from FY06 through 
FY08. Four of the recommendations concern vulnerability issues and 
suggest design changes which have not been made. It is my understanding 
that space is available for some of these changes pending review of 
full-up system-level vulnerability test results. The remaining four 
recommendations concern resourcing a realistic test plan. The detailed 
integrated test review of the restructured test plan, which is in 
progress now, is intended to reveal resource issues that need to be 
addressed to execute the test plan. Adequately building up and 
maintaining resources at the two test centers (Edwards AFB and Patuxent 
River NAS) in accordance with the expectations for flight testing is 
the most crucial recommendation and I expect that recommendation to be 
implemented by the program's new leader. The JPO and contracting team 
have been willing to listen to DOT&E observations, provide responses to 
questions and access to information.
    Mr. Smith. Dr. Gilmore, Clearly, F-35 production will far exceed 
what is needed for operational test and evaluation and the 10 percent 
standard for low rate initial production before initial operational 
test and evaluation is completed in 2016. The path the program is on 
will result in funding for the highest rate of production of any other 
year in the program in 2016 before the full rate production decision is 
even made. The F-35 contractor argues that the production should be 
increased, stating that it is cheaper to modify airplanes than incur 
the inefficiencies of lower rate production. Please comment. What are 
your views?
    Dr. Gilmore. The level of concurrency in the program creates high 
risk until flight test demonstrates the performance of the system and 
operational test confirms the required capability is resident in the 
system without extensive modifications to the aircraft. Numerous re-
design efforts are already underway for all three variants. I cannot 
predict the potential costs of future modifications, but historical 
experience indicates that the sooner in development problems are 
discovered, the easier and less expensive it is to fix them.
    Mr. Smith. In your statement you say the JSF problems were 
foreseeable. What has been the primary cause of the poor cost and 
schedule outcomes to date? Have the problems been adequately rectified 
in your view?
    Mr. Sullivan. We believe the proximate cause of the JSF program's 
continuing cost and schedule problems can be traced to an acquisition 
strategy and subsequent decisions at key junctures that did not 
adequately follow the best practices we have documented in successful 
commercial firms and government programs. From the start, the JSF 
acquisition strategy incorporated excessive concurrency, or overlap, in 
development, testing, and production activities increasing risks of 
poor cost, schedule, and performance outcomes. Purchasing aircraft 
before technologies are ready and testing successfully demonstrates 
that designs are mature and systems will perform as intended increases 
the likelihood and impact of design, manufacturing, and requirements 
changes resulting in subsequent cost growth, delivery delays, and 
performance shortfalls. In the JSF's case, the program started system 
development before requisite technologies were ready, started 
manufacturing test aircraft before designs were stable, and moved to 
production before flight tests have adequately demonstrated that the 
aircraft design meets performance and operational suitability 
requirements. The late release of engineering drawings resulted in a 
cascading of problems to establish a mature supplier base and 
manufacturing processes, which in turn led to late parts deliveries, 
inefficient manufacturing processes, and delays in delivering test 
aircraft.
    Although we note some improvements in the supplier base and reduced 
out of station work, the impacts from these problems have persisted and 
are still contributing to poor program outcomes. Manufacturing labor 
hours have continued to increase, management reserves have been 
depleted, and test aircraft have been delivered late, contributing to 
delays in development testing. Poor decisions exacerbated the 
situation. In late 2007, DOD decided to cut two test aircraft and 
accelerate the reduction in contractor engineering staff in order to 
replenish management reserves. We disagreed with this plan because the 
reduction in test assets was not tenable and because the problems 
causing reserves to be depleted had not first been identified and 
fixed. We also determined that the official program cost estimate was 
not reliable and was understated, and we recommended that a new 
comprehensive and independent cost estimate through completion of the 
program be accomplished. DOD disagreed. Since that time, management 
reserves were again depleted and the Joint Estimating Team (JET) 
determined that program office cost and schedule estimates were 
understated and overly optimistic. The recently announced restructure 
extends the time for testing, and adds back in one test aircraft while 
providing for the use of three production aircraft to supplement 
development flight testing. Also, due to the program's recent critical 
Nunn-McCurdy breach, a comprehensive independent cost estimate is being 
prepared. We support the restructure and expect it to improve program 
outcomes in the future, but concurrency is still excessive. The 
Department now plans to procure up to 307 aircraft costing $58.2 
billion before completing development testing. Also, the Independent 
Manufacturing Review Team (IMRT) identified major improvements needed 
to achieve planned production rates and the F135 Joint Assessment Team 
(JAT) noted substantial engine cost growth and opportunities to reduce 
costs; these improvements will require funding and will need time to 
implement and take effect.
    Mr. Smith. In past reports, the GAO has been critical of the level 
of concurrency in the program with development, test, and production. 
Do the actions being taken as part of the restructure alleviate your 
concerns? If so why? If not, why not?
    Mr. Sullivan. The restructure ordered several positive actions, 
including increasing funding and extending the schedule to complete 
system development, adding 4 more development test assets, and reducing 
near-term procurement. We think these and other actions, if effectively 
implemented, will improve program outcomes, but only marginally lessen 
concurrency. Restructure-related improvements are geared to specific 
functions and do not directly impact the acquisition strategy and 
concurrency among functions. There is still substantial overlap of 
development, test, and production activities now stretching another 
2\1/2\ years to April 2016. Even with the reduced near-term procurement 
quantities, the program is still planning to procure as many as 307 
aircraft costing $58.2 billion before development flight testing is 
completed. Purchasing aircraft before testing successfully demonstrates 
that the designs are mature and that the weapon system will work as 
intended increases the likelihood and impact of design, manufacturing, 
and requirements changes resulting in subsequent cost growth, delivery 
delays, and performance shortfalls.
    Mr. Smith. In your statement and in the past you have been 
concerned about DOD's use of cost-reimbursement contracts for 
procurement of low rate initial production. Last year's report 
recommended that DOD report to Congress plans to mitigate risks and 
migrate to fixed price contracts. Why is the program using these types 
of contracts and what are the risks? Does the restructuring adequately 
address these concerns for now?
    Mr. Sullivan. The first 3 low-rate production lots are on cost 
reimbursement contracts, evidently because the knowledge about the JSF 
design, production processes, and costs for labor and material were not 
yet sufficiently mature and pricing information not yet exact enough 
for the contractor to assume the risk under a fixed-price contract. 
Cost reimbursement contracts provide for payment of allowable incurred 
costs, to the extent prescribed in the contract. Cost contracts place 
most of the risk on the buyer--DOD in this case-- who is liable to pay 
more than budgeted should labor, material, or other incurred costs be 
more than expected when the contract was signed.
    The February 24, 2010, JSF program restructure acquisition decision 
memorandum and related actions direct several positive steps concerning 
JSF development and low rate procurement contracts. DOD withheld some 
award fees on the development contract and directed revision of the 
contract structure with the intent to reward measurable progress and 
improved cost and schedule performance compared to the program plan. 
The decision memorandum also states that future aircraft and engine 
production contracts should move to fixed-price incentive fee 
structures as soon as possible. Supplementary information provided us 
by the Defense Director of Portfolio Systems Acquisition discussed (1) 
possibility of awarding a fixed price contract as early as LRIP lot 4 
(fiscal year 2010 procurement) and (2) establishment of a Should Cost 
team to inform negotiation of a fixed price contract for LRIP 5 (fiscal 
year 2011 procurement). While the restructuring did reduce near-term 
procurement and establish critical business measure to move to fixed 
price contacts as soon as possible, until fixed price LRIP contracts 
are negotiated between DOD and the prime contractor, the government is 
still bearing most of the cost risk.
    Mr. Smith. In the GAO's F-35 report, you asked Congress to consider 
a matter that asks the Department to submit a tool or ``system maturity 
matrix'' for better measuring program progress in maturing the weapon 
system. What is your vision of this tool and how do you expect this to 
help the Congress in its annual deliberation of JSF's budget request? 
Has such a tool been used previously and with what impact?
    Mr. Sullivan. Congress had similar concerns concerning the 
concurrency on the B-2 program and planned investment in procurement 
aircraft prior to fully testing the aircraft. Congress enacted 
legislation to control B-2 procurement decisions and require the 
Department to deliver assurances prior to procurement of additional B-
2s. A key tool was a ``full performance matrix'' that Congress required 
DOD to develop and which identified minimum conditions that would be 
met before making annual procurements. The full performance matrix laid 
out over time how different capabilities for the B-2 would be 
demonstrated in relationship to procurement decisions. Such a tool 
helped provide visibility for decisionmakers into a program's progress 
in ensuring the maturity of the weapon system based on expected 
demonstrated knowledge against a baseline plan thus allowing for more 
informed investment decisions, and better managed risks of that inherit 
with a highly concurrent development and production program.
    Appendix 1 is a suggested system maturity matrix for the JSF that 
could be used to track annual progress versus plans. Congress could 
apply the matrix in its annual deliberations on whether to approve, add 
to, reduce, or restrict the Department's annual procurement requests. 
The matrix provides criteria and conditions for comparing documented 
results by year to expected progressive levels of demonstrated weapon 
system maturity in relationship to planned increases in annual future 
procurement quantities. This matrix should explain how increasing 
levels of demonstrated, quantifiable knowledge about the weapon system 
maturity at annual procurement decision points justify ramp up of 
procurement quantities, and corresponding increasing funding needs, 
leading up to full-rate procurement.
    Mr. Smith. As you know the DOD is requesting funding for 43 
aircraft (including one for overseas contingency operations) in its FY 
2011 budget request, an increase of 13 aircraft from last year. Does 
GAO feel the aircraft system is at a maturity point that justifies such 
an increase? Why or why not? What are the risks?
    Mr. Sullivan. Considering the increased costs, extended development 
schedule, and corrective actions directed, but not yet implemented, by 
the recent restructuring and the Nunn-McCurdy breach announcement, we 
believe that a significant ramp up in production is not warranted at 
this time. Increased manufacturing labor hours, parts problems, 
continuing design changes, and late deliveries indicate that design and 
manufacturing processes may lack the maturity needed to efficiently 
produce aircraft at planned rates. As of January 2010, only 4 test 
aircraft had been delivered and the first two production aircraft--
ordered in 2007--are expected to be delivered later this fall. DOD has 
already bought 28 production aircraft through fiscal year 2009. Under 
the current plan, DOD proposes increasing production rates by 163 
percent from fiscal year 2011 to 2015. DOD wants to buy as many as 307 
aircraft at a total estimated cost of $58.2 billion before development 
flight testing is completed. However, at the same time, it has not been 
successful in meeting demonstration goals and testing schedules to 
support increases in production investments, placing billions of 
dollars at risk as it develops and produces aircraft concurrently. We 
have reported in the past on several occasions about the risks of 
producing aircraft before testing demonstrates the design is mature, 
costs are well understood, and manufacturing activities can support the 
ramp up in production. As the JSF's program development and test 
program slips, it further increases the chances that costly design 
changes will surface in the later years of flight testing.
    Reducing fiscal year 2011 procurement would lessen the steep ramp 
rate and provide the program with more time to implement 
recommendations made by the Independent Manufacturing Review Team 
(IMRT) commissioned last year to assess the program's manufacturing 
capabilities and production plans. The IMRT notes that to reach the 
planned production levels, new production transition, risk mitigation, 
and supplier support plans are needed. Without such improvements, there 
is significant risk that the prime contractor will not produce planes 
according to plan and a backlog of production aircraft will develop. 
Considering the program's relatively slow test progress and 
manufacturing performance, procuring less aircraft in fiscal year 2011 
would also better align the manufacturing and testing schedules without 
unduly disrupting the program. We have submitted Budget Justification 
Fact Sheets recommending the reduction of 7 total JSF aircraft out of 
the fiscal year 2011 procurement buy (Two aircraft from each Service's 
regular budget request and one aircraft from the Air Force's OCO 
request.)
    Mr. Smith. How confident is the GAO that the program will not 
encounter future cost and schedule perturbations? What things should 
Congress watch as indicators that the program is on track to deliver on 
cost and schedule moving forward?
    Mr. Sullivan. The program will likely continue to experience cost 
increases and schedule delays despite the recent restructuring's 
positive steps. There remains substantial overlap of development, test, 
and production activities while DOD continues to push ahead and invest 
in large quantities of production aircraft before variant designs are 
proven and system performance verified. Also, DOD is repricing the 
procurement program through completion in 2035; this is expected to 
significantly increase future funding requirements. In addition, the 
IMRT and JAT identified numerous improvements needed in airframe and 
engine production, respectively, with associated costs and schedule 
impacts. Further, manufacturing inefficiencies will likely prevent the 
program from meeting the substantial increase in annual procurement 
quantities until certain steps are taken. Indicators for Congress to 
focus on include (1) test progress as measured by the number of flight 
test sorties completed, flight test hours, and test point burn down; 
and (2) scheduled versus actual delivery of test and production 
aircraft.
    Mr. Smith. Members of Congress are perturbed about a general lack 
of access to JSF program information and the Department's late 
announcement of cost and schedule problems resulting in a major 
restructuring and Nunn-McCurdy breach. How has your access been? In 
particular, to what extent have you and your team had timely visibility 
into efforts such as the JET, JAT, and IMRT in the past year?
    Mr. Sullivan. The team generally had poor visibility into the 
independent reviews conducted by the Joint Estimating Team (JET), 
Independent Manufacturing Assessment Team (IMRT), and the F135 Engine 
Joint Assessment Team (JAT) until very late. We made repeated requests 
for this information starting in November 2009, but was not briefed and 
provided supporting documentation by DOD until February 25, 2010. This 
occurred while our draft report was in processing and we ended up 
delaying issuance by one week, in part, so we could provide more 
current and accurate information about these important reviews. We did 
not, however, have sufficient time to do the necessary follow-up work 
and analysis to fully evaluate the reviews and their significance to 
the JSF program. We plan to do this during our next review starting 
soon.
    Mr. Smith. On the F135 and F136 engine, assuming fully funding the 
respective contractors at a dollar level that can be productively 
executed, what would be the required funding, in then-year dollars, by 
appropriation, for fiscal year 2011 and in total for the remainder of 
the future years defense program,

    <bullet>  To complete development

    <bullet>  To prepare for competitive procurement

    <bullet>  And in what year would competition be possible?

    Mr. Sullivan. For our engine cost analysis, we did not conduct an 
independent cost estimate to include the required funding for the F135 
and F136 and our analysis was not intended to provide a definitive 
estimate of the total government funding requirement to execute the 
F135 and F136 programs. The cost analysis was intended to provide a 
reasonable cost comparison for the completion of system development and 
demonstration, engine recurring flyaway costs, production support and, 
sustainment on sole source basis and under two different competitive 
scenarios. It was also intended to provide a reasonable estimate of the 
level savings needed to recoup the additional costs of competition 
given certain assumptions. It was based on the best information we had 
available at the time we conducted our analysis in March 2010.\1\ For 
our analysis, we assumed that competitive procurement would begin in 
fiscal year 2015. This aligns with the completion of the JSF aircraft 
program development flight test program and would start the competition 
with the last low-rate initial production aircraft buy.
---------------------------------------------------------------------------
    \1\ Refer to GAO-10-478T for details on the scope and methodology 
of our analysis.
---------------------------------------------------------------------------
    Table 1 and 2 below provide the estimated costs we used in our 
updated analysis for the sole source scenario and the additional 
estimated costs (converted to then year dollars) to execute the 
competitive scenarios (50/50 and 70/30 split of total engine purchases 
to either contractor) for Fiscal Year 2011 and for the periods Fiscal 
Year 2012 to 2015, respectively. It is important to note that the cost 
analysis presented in our March 2010 testimony was presented in 
constant fiscal year 2002 dollars.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Smith. Clearly, F-35 production will far exceed what is 
needed for operational test and evaluation and the 10 percent standard 
for low rate initial production before initial operational test and 
evaluation is completed in 2016. The path the program is on will result 
in funding for the highest rate of production of any other year in the 
program in 2016 before the full rate production decision is even made. 
The F-35 contractor argues that the production should be increased, 
stating that it is cheaper to modify airplanes than incur the 
inefficiencies of lower rate production. Please comment. What are your 
views?
    Mr. Sullivan. Although officials recently reduced near-term 
procurement plans, DOD still plans significant investments in procuring 
large quantities of JSF aircraft before flight testing proves they will 
perform as required. We believe this strategy contains risk for further 
cost growth resulting from design changes uncovered from flight 
testing. The cost of discovering design problems during production 
could be significant if testing shows that large, structural components 
of the aircraft require modifications. Design changes needed in one 
variant could also ripple through the other two variants, reducing 
efficiencies necessary to lower production and operational costs with 
common parts and manufacturing processes for the three variants. The 
intent of development flight testing is to discover and fix design and 
performance deficiencies during development when it is cheaper to do so 
than discovering problems and shortfalls during follow-on operational 
testing and after initial fielding. Purchasing aircraft before testing 
successfully demonstrates that the designs are mature and that the 
weapon system will work as intended increases the likelihood and impact 
of design, manufacturing, and requirements changes resulting in 
subsequent cost growth, schedule delays, and performance shortfalls. 
Systems already built and fielded may require substantial 
modifications, driving further costs.
    Some of the more stressing and critical testing for the program 
still lies ahead. This includes high angle of attack tests, ship tests, 
full up mission system tests and operational testing. By the time these 
events occur, the program will have purchased as many as 307 aircraft 
at a cost of over $58 billion. The program believes the risk of major 
modifications resulting from flight testing is low because of its 
extensive use of modeling and simulation. As we reported in March 2010, 
despite the extensive network of simulation labs, their ability to 
substitute for flight testing is unproven and the contractor's progress 
in reducing program risk is difficult to assess, as many labs and 
models have yet to be accredited. Rand Corporation reported in a 2004 
study on testing and evaluation that modeling is not a substitute for 
flight testing.\2\ Rand found that even in performance areas that are 
well understood, it is not unusual for flight testing to uncover 
problems that were not apparent in simulations. Examples include flight 
effects on the wing of the F/A-18 E/F and buffeting of stores 
externally carried on various aircraft when flown in certain 
conditions. Additionally, OSD testing officials have indicated that 
flight testing of each variant is necessary to demonstrate designed 
capabilities. Our past work has found that flying quality problems were 
identified during actual flight testing on programs like the F-22A, B-
2A, and V-22.
---------------------------------------------------------------------------
    \2\ Rand Corporation, Test and Evaluation Trends and Costs for 
Aircraft and Guided Weapons (Santa Monica, California, 2004).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Smith. From an acquisition perspective, with 1,763 Air 
Force F-35s in the current program, and the fact that a one-engine and 
two-engine F-35 program cost the same on a net present value basis, why 
wouldn't the Air Force want to choose a competitive engine strategy for 
the F-35 when it would also provide additional non-financial factors 
such as technological innovation, enhanced contractor responsiveness, 
and a more robust industrial base?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. When was the 1763 F-35A requirement established?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. When the 1763 F-35A aircraft requirement was 
established, what was the IOC at that time and when is the IOC 
projected now?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. When the 1763 F-35A aircraft requirement was 
established, what was the projected average procurement unit cost ($TY) 
for the F-35A? Projected average unit flyaway cost ($TY)?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. What are the current projected APUC and average unit 
flyaway costs ($TY)?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. When the percentage increase in the APUC and flyaway 
cost are calculated, is the Air Force expecting its budget in the FYDP 
and extended planning period for the F-35A to increase proportionately?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Does the AF foresee a need to adjust its planned 
procurement of the F-35A proportionately?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. When the Air Force budget was submitted for fiscal year 
2009, what was the projected F-35A procurement quantity for fiscal year 
2010? What was the F-35A budget request for procurement for fiscal year 
10?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Has a fighter engine ever been required to have the 
capabilities that the F135 and F136 are being required to satisfy?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. How many foreign countries have procured both the F100 
and F110?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Air Force official statements express concern that 
funding of an alternate engine program could result in a decrement of 
F-35A aircraft in Air Force procurement: (CSAF) ``If you have a fixed 
program top line for the F-35, if you fund the alternate engine out of 
that top line, it has an inescapable effect of reducing aircraft 
procurement.'' The JSF program has increased in cost by $100 billion 
and the F135 SDD contract has increased 50 percent. Yet the Air Force 
continues to project a total procurement of 1,763 aircraft. Given this 
apparent flexibility in the AF budget, why is not possible, in order to 
maintain competition for the F-35 engine and a balanced F-35 program, 
to also fund the F136 engine?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. A May 2008 Defense Contract Management Agency study done 
on behalf of SAF/AQ, ``Fighter Engine Industrial Capability 
Assessment,'' recommended that F136 alternate engine production be 
reinstated under the fiscal year 2006 schedule to provide for 
production deliveries in fiscal year 2010. As you are aware, fiscal 
year 2006 was the last year that the Department of Defense budgeted for 
the alternate engine. The DCMA assessment indicates that the lack of a 
major engine development program threatens the survivability of the 
military engine industrial base after the development of the F135, 
regardless of whether the F136 is funded: At completion of the F-35 SDD 
program, the F-35 engine manufacturers will be without a major fighter 
engine development program for the first time in over 35 years. What is 
the policy of the Department of the Air Force with regard to 
maintaining a competitive high performance engine industrial base and 
what FYDP plan and funding does the Department of the AF have to 
support its policy?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. The committee understands that the Department's new 
position on long-range strike is that a ``family of systems'' is 
required to meet warfighting requirements. Can you explain to the 
committee why you feel it will be more cost-effective to operate and 
maintain multiple long-range strike platforms rather than integrating 
technologically feasible technologies onto a single platform?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. As it relates to the long-range strike development 
program, what specifically about sustaining the industrial base 
workforce concerns you, and how will the $200.0 million requested in 
fiscal year 2011 be applied to address your concerns?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Are service life extension programs (SLEPs) budgeted 
that will allow legacy aircraft to address fighter aircraft inventory 
requirements?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Taylor. Dr. Carter, during the JSF program restructuring, we 
understand that Secretary Gates directed a withhold of $614 million 
dollars of award fee from the contractor based on the program's poor 
performance because he stated that the taxpayer shouldn't be the only 
one's held responsible for the cost and schedule overrun in this cost-
plus development contract. However, it's our understanding that you are 
giving the contractor a chance to recoup $614 million dollar award fee 
in the future. So given the contractor's poor performance and their 
ability to recoup the award fee, the taxpayer is really going to be 
paying all of the cost overrun, correct? Why does that make sense?
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Taylor. Ms. Fox, in terms of percentages, what do you assess 
the commonality of each of the airframes, missions systems, engines, 
and vehicle systems to be for all three models of JSF aircraft for the 
phases of development, production and operating and support? What is 
your assessment of how the commonality, or lack thereof, is 
contributing to the increased cost growth for the total ownership costs 
of each of the aircraft and are commonality expectations being 
realized?
    Ms. Fox. Proposed Response: With respect to Joint Strike Fighter 
cost estimates, the assessment of commonality comes primarily into play 
with respect to the production cost estimate for the airframe. Assuming 
more commonality translates into lower costs through the application of 
learning curves. The second JSF Joint Estimating Team (i.e., JET II), 
led by OSD CAPE, employed a methodology in assessing commonality that 
is based on airframe weight classified as either being common to all 
variants, common to a subset combination of the variants, or unique to 
individual variants. Through this assessment, the JET II assesses 
airframe commonality of approximately 25% whereas the joint program 
office and contractor assessments are greater than 80%. This generates 
a significant cost difference between the two airframe production cost 
estimates.
    As part of the Nunn-McCurdy recertification process, OSD/CAPE will 
re-assess its treatment of airframe commonality, including the review 
of actual contractor production cost data for the early LRIP production 
aircraft. However, it should be recognized that the actual commonality 
data is based on a limited number of aircraft delivered to date, and 
that we will not have a better foundation of actuals for Carrier 
Variant aircraft for another 2-3 years. Similarly, O&S costs should be 
reduced with higher levels of commonality. CAPE has not yet performed a 
quantitative assessment of commonality related to O&S costs.
    Mr. Taylor. Ms. Fox, what do you estimate to be the total ownership 
life-cycle costs for the Department of the Navy for the F-35B and F-
35C, and what are the assumptions that go into that estimate?
    Ms. Fox. We do not have a current estimate of the total life-cycle 
costs. We expect to complete a life-cycle cost estimate later this 
summer, and will provide the information to the committee at that time.
    Mr. Taylor. Ms. Fox, if the F/A-18E/F aircraft was procured for the 
Navy, in lieu of the F-35C, what do you estimate would be the total 
ownership life-cycle costs of the F/A-18E/F would be, assuming that it 
would be operated for the planned service-life of the F-35C?
    Ms. Fox. We do not have current estimates of F/A-18E/F total 
ownership life-cycle costs. These calculations are difficult to 
compute. We are looking at them as part of the FY 2012 program review. 
What we can do is show you a comparison using average procurement costs 
(APUC) between the F-35C and the F/A-18 E/F.
    Consider the table below. The Navy is planning to buy 680 F-35s. 
They have not decided on how that total will be split between variants. 
For the purpose of this exercise, we assumed a 50/50 split meaning that 
we assume a total of 340 F-35Cs. The F-35 SAR lists an APUC (in 2010 
dollars) of $93 million per aircraft for a ``total cost'' of $31.6 
billion. If the Navy bought 340 F/A-18 E/Fs at an estimated APUC of $90 
million per aircraft, the ``total cost'' would be $30.6 billion.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Taylor. Ms. Fox, in testimony to the Senate Armed Services 
Committee two weeks ago, you stated that in your estimate, the Navy's 
100 aircraft strike-fighter shortfall was an old number. Can you 
provide us the CAPE estimate for the number of strike-fighter aircraft 
that the Department of the Navy will be short and when that shortfall 
is supposed to peak?
    Ms. Fox. We are in the process of analyzing this question as part 
of the PB 2012 program review. We will be happy to show this analysis 
with you upon completion.
    Mr. Taylor. Dr. Gilmore, you state in your testimony that because 
of durability issues, the Marine Corps' current version of the JSF 
requires a re-design of the drive-shaft that connects the main engine 
to the vertical lift-fan, and the clutch that connects the drive-shaft 
to the lift-fan also needs to be re-designed because of excessive 
heating issues which could cause it to fail during vertical flight 
operations. In your opinion, how serious do characterize these issues, 
how long do you assess it will take to redesign and test the new drive-
shaft and clutch, and how do you assess the Marine Corps being able to 
declare IOC in year 2012?
    Dr. Gilmore. The issues are serious enough that the design must be 
changed soon and incorporated with production plans beginning with the 
upcoming LRIP lot 4. The final nature of these two re-designs is not 
yet known and all the implications are not fully understood. Test 
aircraft are receiving new instrumentation to collect more data on the 
problems to determine root cause. My understanding is that these design 
changes will be finalized late this year and, in the meantime, the SDD 
and initial LRIP aircraft will have operating limits. The redesigns are 
needed for the system to complete the SDD flight test program and meet 
operational requirements. Successful redesign and implementation by 
LRIP 4, plus retrofit of prior systems may be possible in time for the 
STOVL IOC in late 2012, but there is little margin in the schedule.
    Mr. Taylor. Dr. Gilmore, we understand that the Logistics 
Information System that is required to pre-flight and trouble-shoot the 
JSF before and after flight is very large and cumbersome and is not 
suitable for forward deployed operations. How do you assess this will 
affect the Marine Corps' ability to declare IOC in year 2012 and when 
do you expect a suitable forward deployed system will be available to 
support Marine Corps forward-deployed operations?
    Dr. Gilmore. A Logistics Information System which is not designed 
for deployment will limit all the Services' abilities to operate from 
forward bases. As designed, the entire squadron operating unit weighs 
2,400 pounds and is six feet tall, excluding transportation dolly and 
packaging material, making it difficult to transport on and off ships, 
or to detachment-type operations at forward operating locations. The 
program office is currently developing deployment procedures for a 
squadron kit to support Marine Corps requirements in 2012, but that kit 
will have limited capability. It is my understanding that the Marine 
Corps is reviewing this solution to determine if it meets the need for 
STOVL IOC. The program office has also begun a detailed analysis of 
deployment requirements and is planning to develop, deliver, and test a 
fully deployable solution in the 2014-2015 time frame.
    Mr. Taylor. Dr. Gilmore, your report mentions that the program's 
recent removal of shutoff fuses for engine fueldraulics lines coupled 
with the removal of fire extinguishers has increased the likelihood of 
combat losses from ballistic threat induced fires. Do you believe these 
items were removed to save cost? Do you believe these are prudent 
actions for a combat aircraft?
    Dr. Gilmore. The JSF program office removed the engine fueldraulics 
shutoff fuses and five of six dry bay fire suppression systems to save 
weight and costs. DOT&E continues to recommend that these features be 
reinstated and does not view their removal as prudent. JSF Live Fire 
ballistic testing has demonstrated that the JSF is vulnerable to threat 
induced fires. Live Fire testing has also demonstrated that an 
effective fire suppression system exists and can be installed. 
Historical combat data indicate that threat induced fire is a leading 
cause (25 percent) of combat aircraft loss. The program office 
estimates that removal of these systems will reduce life cycle costs 
for the total program by $125M. This equates to the cost of less than 
two aircraft (December 2009 unit cost estimates) losses during combat 
operations over the JSF aircraft's entire combat service lifetime. The 
dollar value of additional likely combat losses, due to lack of these 
systems, would more than offset these savings.
    Mr. Taylor. Dr. Gilmore, what are the current aircraft operating 
limitations for the F-35B aircraft participating in the SDD program as 
it relates to crosswinds, monitored parameters, vertical lift 
performance as it relates to hot gas ingestion, thunderstorms, wet and 
standing water runways, descent rate as it relates to the fuel system 
and icing? Will sufficient aircraft operating limitations be lifted in 
time to support initial pilot aircraft training to support Marine Corps 
IOC in 2012?
    Dr. Gilmore. I cannot assess when the series of STOVL aircraft 
operating limitations, or those on the other variants, will be lifted. 
The new test plan schedule is being finalized. As flight test yields a 
better understanding of performance and achievable pace of envelope 
expansion, a more accurate prediction of the resolution for each 
limitation can be made. Current F-35B SDD aircraft operating 
limitations include the following:

    <bullet>  Crosswinds. Current limit is between 5 and 15 knots 
depending on type of test, transition points, temperature, engine 
thrust, conventional or vertical mode, airspeed, and whether the 
aircraft is monitored or unmonitored. For example, conventional 
takeoffs and landings without flying qualities monitoring by control 
room personnel are limited to 10 knots crosswind component; 
conventional takeoffs and landings with flying qualities monitoring are 
limited to 15 knots crosswind component (See also vertical lift 
performance--hot gas ingestion.)

    <bullet>  Monitored parameters. Each test flight tailors the data 
it collects and monitors from over 1,200 parameters depending on the 
condition, risks and test being accomplished. For example, there are no 
lift fan engagements unless in contact with the control room.

    <bullet>  Vertical lift performance as it relates to hot gas 
ingestion. Aircraft operations are limited to specific wind components 
and limitations vary depending on the SDD aircraft and what kinds of 
test points are being pursued. For example, 5 knots is the maximum wind 
speed within 22 degrees of the nose and from abeam to behind the 
aircraft for BF-1 performing certain ``initial transition'' vertical 
landing test points. BF-2, BF-3, and BF-4 cannot perform vertical 
landings with wind components greater than 5 knots for wind directions 
greater than 22 degrees off the nose. Limits for vertical landing 
envelope expansion in BF-1 increase up to 20 knots crosswind component 
for wind directions within 30 degrees left of the nose and 45 degrees 
right of the nose.

    <bullet>  Thunderstorms. The airplane is restricted from flight 
within 25 nm of lightning due to structural bonding issues.

    <bullet>  Wet and standing water. Takeoff or landing with standing 
water in the intended area of runway operations is prohibited. With no 
engine ice protection systems installed, ground operations are 
prohibited if standing water is present within 10 feet of the engine 
inlet. No lift fan operations are allowed in the presence of rain or 
above specific relative humidity limits (e.g. 100 percent allowed until 
80 degrees, then decreasing depending on temperature).

    <bullet>  Descent rate relative to fuel system. Descents of greater 
than 5,000 feet are limited to 20,000 feet per minute at idle power, 
and 10,000 feet per minute if above idle power, unless within specific 
technical parameters monitored by the flight test control room, 
including confirmation that the fuel pressure and vent system are 
working.

    <bullet>  Icing. With no engine ice protection system installed, no 
ground operations below 40 degrees F with precipitation or standing 
water present within 10 feet of the engine inlet, or dew point within 5 
degrees of ambient temperature between -4 degrees F and 40 degrees F. 
Flight in icing conditions in excess of 30 seconds is prohibited. STOVL 
lift fan operation in flight in visible moisture is also prohibited.

    Mr. Taylor. Dr. Gilmore, as it relates to potential mishap rates, 
what do you assess and characterize the risk to be for LRIP 1 aircraft 
regarding immaturity of the aircraft system and in-flight limitations 
to support initial pilot training, and would you expect the potential 
for Class A mishaps to be higher than historical experiences?
    Dr. Gilmore. At this point, I cannot predict mishap rates for JSF 
production aircraft. The program is working to close the test points 
needed before delivery of the two LRIP 1 aircraft early next year. 
These aircraft will have a very limited flight envelope and only the 
initial, limited mission systems capabilities provided by Block 0.5. 
The flight envelope will need to be expanded and the mission systems 
capability will need to be upgraded to Block 1 through flight test 
before the planned crew training can begin in mid-2011. The aircraft 
limitations are being reviewed by the training center and Service 
planners, who are aware of the challenge created by concurrent 
development and production. Safely increasing capability through flight 
test, adding more aircraft, and continuously training operators and 
maintainers requires tight coordination and planning by the Services 
and development team.
    Mr. Taylor. Secretary Stackley, the 30 year aviation plan provides 
no discussion of operational risk as it relates to meeting combatant 
commander warfighting requirements and the National Defense Strategy . 
. . how would you characterize, in terms of risk, the force structure 
outlined in the 30 year aviation plan for bombers and the ability for 
the legacy bomber fleet to survive against more advanced integrated air 
defenses in 2015 and beyond since a new bomber will not be fielded now 
until towards the end of the 2020 decade?
    Secretary Stackley. The Department of the Navy has no oversight of 
any bomber programs. We defer this question to the Department of the 
Air Force who manages/oversees all bomber programs.
    Mr. Taylor. Secretary Stackley, given the lack of ``affordability'' 
in the JSF program, have you looked at the option of foregoing 
development and production for the F-35C in favor of buying more F/A-
18E/F Super Hornets?
    Secretary Stackley. With the SECDEF approved F-35 program 
restructure, the Department of Defense has added $2.8B across FYDP to 
fully fund development of the program. As part of the restructure, we 
significantly reduced the production profile to fund these additional 
System Development and Demonstration requirements, accounted for 
increased costs due to Partner projected procurements moving to the 
right, accounted for higher Joint Estimating Team (JET II) procurement 
estimates, and adjusted the production ramp due to recommendations made 
by an Independent Manufacturing and Resources Team (IMRT). As such, the 
Department is fully committed to the restructured F-35 program and the 
existing F-18E/F program of record.
    Mr. Taylor. Secretary Stackley, how do you define ``affordability'' 
as it relates to the Joint Strike Fighter program and how has the 
definition and concept of ``affordability'' changed since the 
initiation of SDD and present day in which the cost of the program is 
markedly greater?
    Secretary Stackley. Affordability needs to account not only for the 
overall cost of a weapon system but the capability any given weapon 
system provides as measured against existing and emerging threats to 
the security of the nation. The Department is not satisfied with the 
cost growth brought forward with the recent F-35 program restructure 
and remains focused on improving upon this cost projection. However, 
the F-35 program is essential towards providing the necessary 5th 
generation tactical aviation capability needed by the nation and that 
this capability is considered affordable within the resources requested 
by the FY 2011 President's Budget. This question will be further 
addressed in the ongoing assessment associated with the Nunn-McCurdy 
review and certification process.
    Mr. Taylor. Secretary Stackley, according to NAVAIR, the F-35B and 
F-35C operations and sustainment cost is predicted to be 40 percent 
higher than the legacy fleet of F/A-18A-D and AV-8B aircraft combined. 
Do you agree with this assessment? If not, why not? What do you assess 
the operations and support cost of the F-35B and F-35C to be per flight 
hour? How does this compare to the cost per flight hour for the F/A-
18E/F?
    Secretary Stackley. Understanding and controlling total ownership 
costs is a priority for the Department, and we will continue to pursue 
ways to reduce our long-term operations and support costs for all our 
ships and aircraft. I have directed my leaders to study and understand 
the total ownership costs of new and existing systems. Early 
assessments serve to highlight risk areas which need to be managed in 
order to mitigate operations and support costs. The NAVAIR estimate of 
JSF cost per flight hour is consistent with that intent and will be 
further informed by other service and Department assessments to 
validate the findings while initiating `next steps' to mitigating 
costs. As well, the unique in-service support plan for JSF poses 
challenges for direct comparison with legacy sustainment costs, and we 
are taking added measures to align bases of estimates. Accordingly, it 
is not prudent to conclude the total ownership costs of JSF based on 
the NAVAIR study alone. The more complete analysis will be accomplished 
in conjunction with the Nunn-McCurdy review and certification process.
    Mr. Taylor. Secretary Stackley, what do you estimate to be the 
total ownership costs of the F-35B and F-35C for the Navy and Marine 
Corps?
    Secretary Stackley. Understanding and controlling total ownership 
costs is a priority for the Department, and we will continue to pursue 
ways to reduce our long-term operations and support costs for all our 
ships and aircraft. I have directed my leaders to study and understand 
the total ownership costs of new and existing systems. Early 
assessments serve to highlight risk areas which need to be managed in 
order to mitigate operations and support costs. The NAVAIR estimate of 
JSF cost per flight hour is consistent with that intent and will be 
further informed by other service and Department assessments to 
validate the findings while initiating `next steps' to mitigating 
costs. As well, the unique in-service support plan for JSF poses 
challenges for direct comparison with legacy sustainment costs, and we 
are taking added measures to align bases of estimates. Accordingly, it 
is not prudent to conclude the total ownership costs of JSF based on 
the NAVAIR study alone. The more complete analysis will be accomplished 
in conjunction with the Nunn-McCurdy review and certification process.
    Mr. Taylor. Admiral Philman and General Trautman, the JSF program 
office now estimates the JSF will now cost you $112 million per 
aircraft to buy instead of $59 million per aircraft, and Naval Air 
Systems Command estimates that the JSF will cost you $31,000 dollars 
per hour to operate compared to the current fleet of aircraft that 
costs you $18,000 dollars per hour. How will these increased costs 
affect your ability to buy and operate JSF given all the other 
priorities the Navy has concerning its challenges to pay for new ships, 
personnel and operations and maintenance costs for its ships? Wasn't 
the JSF originally planned to cost you less than your current fleet of 
tactical aircraft?
    Admiral Philman and General Trautman. Understanding and controlling 
total ownership costs of new and existing weapon systems are priorities 
for the Navy in order to reduce long term operations and support costs. 
The most opportune time to control such costs is early in the weapon 
system's development when actions can be taken which will carry over 
the life of the system. As such, acquisition programs are encouraged to 
study the issue in depth considering many different scenarios. While 
such information taken alone is interesting, it's true value is 
realized when the entire body of work is analyzed, vetted and formally 
presented. The release of such information piecemeal without benefit of 
full analysis can be misleading and should be avoided.
    The Navy believes that recapitalizing the fleet with the JSF F-35C, 
delivering a true 5th generation strike aircraft combining stealth and 
enhanced sensors to provide lethal, survivable, and supportable 
tactical jet aviation strike fighters that complement the F/A-18E/F, 
provides the most flexibility and striking capability for the 
investment. The JSF will provide a survivable ``Day One'' strike 
capability in a denied access environment that can not be accomplished 
by current legacy aircraft. It can be misleading to compare current 
year procurement costs of aircraft with very different capabilities, 
different quantity assumptions, and at very different stages of the 
acquisition cycle (i.e., F/A-18E/F is nearing the end of production and 
F-35 is early in the production phase (i.e., FY11 is Low Rate Initial 
Production Lot V and Full Rate Production is several years away).
    For the Marine Corps the return on investment in capabilities of 
the F-35B outweighs the unavoidable legacy aircraft O&S cost increases 
of not replacing three different aircraft; F/A-18, AV-8B, and EA-6B we 
will incur as these aircraft age far beyond their original service life 
and require substantial modifications to maintain operational relevancy 
and airworthiness, specifically maintaining safety without performance 
limitations. Supporting three aging and lesser technological different 
type model series aircraft exceeds the cost of operating one common 
aircraft with the depth and synergy provided by a collaborative 
globally based program.
    Mr. Taylor. Admiral Philman and General Trautman, the Navy 
currently operates 6 types of aircraft engines on its carriers and is 
forecasted to operate 4 engines when JSF is fielded. Why would 
operating an alternate engine be a challenge for the Navy or Marine 
Corps since you are predicting to operate at least 4 engines on the 
carrier now? Also, wouldn't it be possible for carrier air wings to be 
outfitted with either the F135 or F136 engine which means that during 
deployments carrier air wings would only have either engine on board 
the carrier? How do you assess the operational risk of having only 1 
engine type available for the JSF? Are you not concerned about 
potential fleet wide grounding issues due to an unexpected engine 
problem?
    Admiral Philman and General Trautman. A numerical engine count does 
not provide the full context for this discussion. The JSF engine is the 
largest tactical fighter engine in size and overall logistics footprint 
in the history of the Department of Defense. In comparison to legacy F/
A-18E/F (Model F414), the F135 engine is approximate twice the size of 
the Super Hornet F414 engine. While the performance of the F135 engine 
brings significant performance gains and warfighting advantage, it 
presents logistical challenge for all of the Services--but no more so 
than to the Navy and Marine Corps who operate in already constrained 
spaces aboard L-Class and CVN ships.
    The Navy Department believes the implementation of two JSF engines 
onboard aircraft carriers is suboptimal due to increased operational 
logistics foot print (LFP). Current LFP challenges available hangar 
deck space due to the JSF engines being too large to fit in the 
aviation bulk storage or jet shop (either F135 or F136). LFP problem 
compounds with both F135 & F136 engines afloat on the same ship, each 
engine has unique support equipment and tools effectively doubling the 
LFP required for these items. Spotting and supporting two engines will 
negatively affect hangar bay aircraft spotting and maintenance 
operations. Regardless of the decision on an alternate engine, it would 
be the Navy's intent to deploy only one engine variant on any one CV.
    The Navy does not fly aircraft that have interchangeable engines. 
While some model types such as the F/A-18 are supported by two distinct 
engines, they are unique to the model series (A/B, C or E/F) and are 
not interchangeable across series. If there is a fleet wide grounding 
of an aircraft due to engine issues, there is no alternate engine to 
mitigate the problem.
    Mr. Taylor. Admiral Philman and General Trautman, according to Dr 
Gilmore's written testimony from panel 1, we understand that unlike all 
aircraft now in service, the JSF is being designed without a fire-
suppression system in its engine bay because of aircraft weight issues? 
Why is this acceptable since all aircraft in operation currently have a 
fire-suppression system and what level of risk does this pose for a 
single-engine aircraft being unable to put out an engine fire due to a 
fuel leak or enemy ballistic fire?
    Admiral Philman and General Trautman. The JSF is being designed 
with an engine bay fire detection and fire suppression system. Several 
features in the F-35 vulnerability design resulted in a system that 
exceeded the specification in the Operational Requirements Document 
(ORD): ``4.1.3.2 The JSF Vulnerability Posture shall be better than the 
F-16C.'' These unprecedented survivability features led to design 
trades to better balance performance, weight, cost, and risk. These 
trades included: a ballistic liner, dry bay fire extinguishing, and 
coolant/hydraulic shutoff valves. The resulting design met the ORD 
requirement with the exception of a 30mm high-explosive incendiary 
round typically associated with light anti-aircraft artillery. The 
option to remove these features was fully debated through the 
requirements process to ensure the true cost benefit was fully 
evaluated. The identified weight and cost penalties (11 lbs and $1.4M) 
were compared against the minimal survivability increases (6%) 
predicted by the assessment models. The Joint Executive Steering Board 
(JESB) concurred with this decision and stipulated that an updated 
Vulnerability Assessment be conducted after the conclusion of the Live 
Fire Testing (2011). The overall survivability posture of the F-35 is 
without equal due to the advanced avionics and sensor suite, fifth 
generation stealth performance, advanced countermeasures and balanced 
vulnerability reduction design. The functionality and benefit of each 
design feature is carefully weighed against the overall system impact 
to cost, weight and supportability. After careful, detailed, and 
extensive deliberations the risk posed by removal of these systems was 
deemed acceptable.
    Mr. Taylor. Admiral Philman and General Trautman, can you describe 
for us the ship integration challenges and expected costs you foresee 
for integrating the JSF onto Large Deck Amphibs and Aircraft Carriers 
as it relates to the significant engine thrust, pressure and 
temperature challenges over what has been experienced with legacy 
aircraft?
    Admiral Philman and General Trautman. JSF integration on L Class 
ships is progressing on a logical path aligned across engineering, 
acquisition, and implementation. NAVSEA generated specific ship changes 
``Cornerstone Alts'' to provide shipboard infrastructure (i.e., power, 
weapons stowage, secure facilities). These cornerstone modifications 
start in PR-11 ($27M per hull) and are programmed throughout the FYDP. 
External environment impacts are still being evaluated through 
engineering analysis, land based testing and during Developmental 
Testing (DT) 1 in 2nd quarter FY2011. The DT 1 ship will be fully 
instrumented to collect heat, pressure, noise and velocity data with 
topside equipment/systems either being temporarily removed or shielded 
to lower risk to damage. This DT event will assist in defining 
shipboard mitigation required to meet USMC IOC such as relocating 
systems, material changes and shielding. External environment 
modifications are a POM-12 issue ($43M per Hull) and are programmed to 
support Operational Test in the later part of 2012 and our first 
operational F-35B MEU deployment in 2014. There will be an L Class ship 
available in 2012 with all the F-35B integration modifications 
incorporated to support a shipboard deployment if required.
    Aircraft carrier F-35 integration poses similar challenges for both 
the STOVL and CV variants. There is a large degree of synergy between 
infrastructure support requirements and design for the shipboard 
compatibility required for shipboard integration. Environmental effects 
differ due to the unique take-off and landing characteristics of each 
variant. The L Class F-35B integration challenges represent the most 
difficult situation for STOVL operations, when combined with the more 
robust CVN design and ship structure we anticipate less effort required 
for F-35B carrier operations.
    Mr. Taylor. General Trautman: As you know, the JSF program has 
experienced a 13 month delay in its SDD program, yet the Marine Corps 
is confident that it can still meet IOC for the F-35B in fiscal year 
2012, and the Navy and the Air Force have officially delayed their 
IOC's by two years as a result. And given the challenges with JSF ship 
integration, the fact that JSF has only completed three percent of its 
test sorties. Can you discuss why the Marine Corps is confident that it 
can meet the 2012 date and also what specific capabilities do you 
expect to have in the F-35B at IOC?
    General Trautman. [The information referred to was not available at 
the time of printing.]
    Mr. Taylor. Admiral Philman: In determining future year strike 
fighter inventory requirements, why is the Department of the Navy using 
1,154 aircraft as its requirement, which is derived solely by existing 
tactical air demand in current operations, and not the Department of 
the Navy validated requirement of 1,240 strike fighter aircraft? Can 
you explain the rationale of why you are basing future fighter 
requirements on current operational demand?
    Admiral Philman. [The information referred to was not available at 
the time of printing.]
    Mr. Taylor. Admiral Philman: Why is the Navy not planning to buy 
additional F/A-18E/F aircraft to fill the 263 aircraft gap predicted to 
peak in fiscal year 2017? Do you believe that our adversaries will have 
the ability to detect with their air defenses both stealth and non-
stealth aircraft by that date? Has the Navy totally ruled out as an 
option additional Super Hornets? Do you agree with Admiral Mullen's 
testimony to the HAC-D on March 24, 2010, that the extension of the F/
A-18E/F production line through 2013 will be used as a hedge to 
mitigate additional cost growth and/or schedule slip of the Joint 
Strike Fighter program?
    Admiral Philman. [The information referred to was not available at 
the time of printing.]
    Mr. Taylor. Secretary Gates stated that previous Next Generation 
Bomber studies were accomplished to determine ``if '' we needed a new 
bomber, and that the upcoming studies will determine ``what type'' of 
bomber we need. However, given the progress to date that was made in 
system design and development (SDD) of the Next Generation Bomber 
platform before it was cancelled, and the fact that the Air Force was 
given formal approval to enter SDD by the same Secretary of Defense 
three years ago, can you explain to us why the Department's position 
now is that it didn't know ``what type'' of bomber was needed?
    Mr. Van Buren and General Breedlove. [The information referred to 
was not available at the time of printing.]
    Mr. Taylor. What requirements and key performance parameters have 
changed that the cancelled Next Generation Bomber platform (NGB), as 
laid out in the systems requirements document for the NGB, would not 
have been able to execute or meet?
    Mr. Van Buren and General Breedlove. [The information referred to 
was not available at the time of printing.]
    Mr. Taylor. Which organization has the lead to reaccomplish the 
Long Range Strike AoA, when is it estimated to be complete and provide 
a wire diagram of the organizational structure of all organizations and 
agencies involved in the AoA process?
    Mr. Van Buren and General Breedlove. [The information referred to 
was not available at the time of printing.]
    Mr. Taylor. Mr. Van Buren: The committee understands that the 
Department's new position on long-range strike is that a ``family of 
systems'' is required to meet warfighting requirements. Can you explain 
to the committee why you feel it will be more cost-effective to operate 
and maintain multiple long-range strike platforms rather than 
integrating technologically feasible technologies onto a single 
platform?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Taylor. Mr. Van Buren: As it relates to the long-range strike 
development program, what specifically about sustaining the industrial 
base workforce concerns you, and how will the $200.0 million requested 
in fiscal year 2011 be applied to address your concerns?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Taylor. General Breedlove: Secretary Gates cancelled the Air 
Force's Next Generation Bomber program last April, but now there is 
$1.7 billion of funding requested in fiscal years 2011 through 2015 for 
development of a long-range strike platform. Can you walk us through 
your deliberative process of canceling a program just 10 months ago and 
now reinstating funding for development of a Next Generation Bomber 
platform in this year's budget? Have requirements or capabilities for a 
new long-range strike platform changed since the previously validated 
requirements and capabilities of the canceled Next Generation Bomber 
program?
    General Breedlove. [The information referred to was not available 
at the time of printing.]
    Mr. Taylor. General Breedlove: The 30 year aviation plan provides 
no discussion of operational risk as it relates to meeting combatant 
commander warfighting requirements and the National Defense Strategy . 
. . how would you characterize, in terms of risk, the force structure 
outlined in the 30 year aviation plan for bombers and the ability for 
the legacy bomber fleet to survive against more advanced integrated air 
defenses in 2015 and beyond since a new bomber will not be fielded now 
until towards the end of the 2020 decade?
    General Breedlove. [The information referred to was not available 
at the time of printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BRADY
    Mr. Brady. Dr. Carter, the Alternate JSF engine has been a source 
of controversy, and both sides have legitimate points. Since the 
delivery of the aircraft has slid, isn't it possible to have a 
legitimate competition for the service engine? The delays haven't been 
engine-related, so how difficult would it be and would there be any 
further delays in having a competition between the two engines?
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Brady. I have heard from maintainers in the field that as long 
as the engines are interchangeable and differences in tools and 
procedures are minimal, that having an alternate engine would pose 
little to no problem in maintaining combat-ready aircraft. Operators 
say that understanding the nuances of two engines (operating limits, 
etc.) make a single engine more practical. What perceptions have you 
heard from the field?
    Secretary Carter. [The information referred to was not available at 
the time of printing.]
    Mr. Brady. Secretary Stackley, the Alternate JSF engine has been a 
source of controversy, and both sides have legitimate points. Since the 
delivery of the aircraft has slid, isn't it possible to have a 
legitimate competition for the service engine? The delays haven't been 
engine-related, so how difficult would it be and would there be any 
further delays in having a competition between the two engines?
    Secretary Stackley. The Department of the Navy supports the 
conclusions of the analysis completed by the Director of Cost 
Assessment and Program Evaluation (D/CAPE) within the Office of the 
Secretary of Defense. D/CAPE estimates that $2.9B is required to take 
the alternate engine to competitive procurement in FY 2017--of which 
$2.5B is required over the next five years. And that the additional 
costs and the burden of maintaining two logistical systems are not 
offset by the potential savings generated through competition--even 
taking into account the recent F-35 program restructure.
    Mr. Brady. Secretary Stackley, I have heard from maintainers in the 
field that as long as the engines are interchangeable and differences 
in tools and procedures are minimal, that having an alternate engine 
would pose little to no problem in maintaining combat-ready aircraft. 
Operators say that understanding the nuances of two engines (operating 
limits, etc.) make a single engine more practical. What perceptions 
have you heard from the field?
    Secretary Stackley. A numerical engine count does not provide the 
full context for this discussion. The JSF engine is the largest 
tactical fighter engine in size and overall logistics footprint in the 
history of the Department of Defense. In comparison to legacy F/A-18E/F 
(Model F414), the F135 engine is approximately twice the size of the 
Super Hornet F414 engine. The Navy does not fly aircraft that have 
interchangeable engines. While some model types such as the F/A-18 are 
supported by two distinct engines, they are unique to the model series 
(A/B, C or E/F) and are not interchangeable across series. While the 
performance of the F135 engine brings significant performance gains and 
warfighting advantage, it presents logistical challenge for all of the 
Services--but particularly for the Navy and Marine Corps who operate in 
already constrained spaces aboard L-Class and CVN ships. Our Navy 
personnel are dedicated and will go to great lengths to get the job 
done. However, with the diminishing space and manpower aboard Navy 
ships, we must look for ways to optimize our resources.
    The Department of the Navy believes the implementation of two JSF 
engines onboard aircraft carriers is suboptimal due to increased 
operational logistics foot print (LFP). Proposed LFP concept of 
operations will challenge the available hangar deck space. This is 
mainly due to the JSF engines being too large to fit in the aviation 
bulk storage or jet shop (either F135 or F136). LFP problem compounds 
with both F135 & F136 engines afloat on the same ship, each engine has 
unique support equipment and tools effectively doubling the LFP 
required for these items. Spotting and supporting two engines will 
negatively affect hangar bay aircraft spotting and maintenance 
operations. Regardless of the decision on an alternate engine, it would 
be the Navy's intent to deploy only one engine variant on any one 
carrier.
    Mr. Brady. LTG. Trautman, what's the long term strategy for EA in 
support of the MAGTF? The EA-6Bs will be over 40 years old by 2020, and 
with delays in JSF, the development of an EA variant of that aircraft 
seems even further off. Is USMC going to shed the role, or are Growlers 
on the table as an option to provide that aircraft and ground force 
support that Marines are asking for everyday in the field?
    General Trautman. We certainly are not shedding the EW mission. In 
fact, the emphasis for the entire Marine Corps is becoming more focused 
on ensuring we have EW available to support both ground and air forces 
down to the lowest tactical levels. We are already on a path to fulfill 
our vision of MAGTF EW: the composite of manned and unmanned surface, 
air, and space-based assets, fully networked and collaborating to 
provide the MAGTF commander the ability to control the electromagnetic 
spectrum at the time and place of his choosing, at sea or ashore, 
regardless of the basing posture or environment.
    The Nation has relied upon and will continue to operate with an EW 
System of Systems approach to address the threat, as there is no 
``silver bullet,'' single program solution that fits every scenario. 
Today our Corps relies upon the EA-6B Prowler from the air and a mix of 
Radio Battalion and the proliferated Counter Radio-frequency controlled 
improvised explosive device EW systems, better known as CREW, on the 
ground to provide MAGTF EW. We are expanding this EW system of systems 
over time. As we build up our concepts of employment and concepts of 
operations (CONEMPS/CONOPS), we see MAGTF EW focusing on addressing and 
mitigating current EW capability gaps and shortfalls to ensure that 
there will be the growth necessary to support all MAGTF operations in 
the future. Wherever and whenever Marines go, they will have access to 
organic EW capabilities. Our goal is to take EW from its current state 
of low density/high demand (LD/HD) to one of high density/high demand 
(HD/HD).
    We are increasing the number of EA-6Bs in the Corps (by folding in 
Navy Prowlers as they transition to EA-18Gs) and introducing the 
Improved Capabilities III (ICAP III) upgrade. As part of the transition 
to ICAP III the Marine EA-6B aircraft inventory will be increased to 
32. The ICAP III system, or ALQ-218, is the same system the US Navy is 
incorporating in the FA-18F to make it an EA-18G, thus maintaining a 
common capability across the Department of the Navy. The first USMC 
ICAP III aircraft has already been delivered to Marine Tactical 
Electronic Warfare Squadron Four (VMAQ-4) at MCAS Cherry Point, NC.
    While there is no intent to have a mission-specific ``EF-35,'' all 
three variants of the F-35 come with significant EP, ES and EA 
capabilities for autonomous operations in the Block 2 aircraft which we 
will IOC in 2012. In this configuration it will not only be able to 
protect itself in the fighter and attack roles, but also do a great job 
escorting Assault Support assets (helicopters, tiltrotar aircraft, and 
KC-130's/C-17's) in hybrid threat environments. The sensors and data 
fusion capabilities of the F-35 make it a superb platform to host an 
increased EW capability--on par with EA-18Gs--by integrating the Next 
Generation Jammer (NGJ) on the platform.
    As advanced EW payloads, such as Intrepid Tiger II Software 
Reprogrammable Payload (SRP), and Next Generation Jammer (NGJ) 
technologies are developed they will be deployed on both our manned and 
unmanned systems. These technologies capitalize on already proven 
deployed systems. Intrepid Tiger I deployed to OIF on AV-8 & FA-18 and 
the Pioneer UAS Electronic Attack Payload (PEAPL) demonstrated the art 
of reality.
    In addition to our Aviation assets, the Marine Corps is expanding 
its ground based EW as well. With the deployment of Communication 
Emitter Sensing and Attacking System (CESAS), the EW capabilities 
resident in the Radio Battalions are growing beyond the Mobile 
Electronic Warfare Support System (MEWSS). Additionally, the CREW 
systems proliferated across the battlefield will also be incorporated 
as EW nodes to collaboratively provide ELINT/COMINT, as well as EA. All 
together, the Marine Corps is actually expanding EW capabilities across 
the entire MAGTF and is NOT shirking the EW mission.
    Mr. Brady. The Alternate JSF engine has been a source of 
controversy, and both sides have legitimate points. Since the delivery 
of the aircraft has slid, isn't it possible to have a legitimate 
competition for the service engine? The delays haven't been engine-
related, so how difficult would it be and would there be any further 
delays in having a competition between the two engines?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Brady. I have heard from maintainers in the field that as long 
as the engines are interchangeable and differences in tools and 
procedures are minimal, that having an alternate engine would pose 
little to no problem in maintaining combat-ready aircraft. Operators 
say that understanding the nuances of two engines (operating limits, 
etc.) make a single engine more practical. What perceptions have you 
heard from the field?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Brady. What's the long term strategy for EA in support of the 
Air Force Expeditionary Wing? In response to the retirement of the EF-
111 and seconded by an F-117 shootdown over Serbia, the Navy stood up 
four squadrons in the '90s to support the USAF and just expanded the 
purchase of EA-18Gs to maintain sole support of combatant commander 
requests for EA in support of land and air forces, including USAF. So 
as the Navy is finalizing plans to enhance its EA capabilities to 
support the joint force, the USAF looks like it's going down a road 
travelled before: relying on stealth technology until it fails us, then 
asking the Navy to cover down. Is the USAF committed to providing these 
capabilities at some point?
    General Breedlove. [The information referred to was not available 
at the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Mr. Secretary, can you give us an update on the status 
of the reorganization of the weapon systems acquisition organizations 
under the Air Force Acquisition Improvement Plan and explain how this 
will benefit Air Force acquisition? How will this affect the location 
of current and future jobs?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Turner. Mr. Secretary, as you look at ways to reform the 
acquisition process to ensure greater efficiency and higher performance 
standards, have you considered the advantage of seeking prime 
contractors located in the vicinity of the Air Force research and 
acquisition organizations with responsibility for the execution of that 
contractor's program? As you well know, there is considerably 
inefficiency with contracting officers and other government technical 
experts shuttling from their offices to provide contractor oversight. 
Moreover, there would be valuable opportunities for creative 
interaction among contractor, contracting staff, and technical experts 
if all were located just a few minutes away. Would you be willing to 
work with me to fashion a pilot program to test the concept?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]

                                  <all>

</pre></body></html>
